Semiannual Report of the             ,_
Inspector General
U.S. Department of Labor
Office of Inspector General

April 1, 1980-September   30, 1980
           SEMIANNUAL     REPORT


APRIL    i, 1980 - SEPTEMBER       30, 1980

    OFFICE   OF INSPECTOR     GENERAL

        U.S. DEPARTMENT    OF LABOR
                                            TABLE     OF CONTENTS




                                                                                       Page


MESSAGE   FROM THE ACTING          INSPECTOR      GENERAL                               i




CHAPTER   I         PROGRAM   AGENCIES     AND DEPARTMENTAL      MANAGEMENT             1


               A.     The Employment       and Training      Administration             1

               B.     The Employment       Standards    Administration                 25

               C.     The Mine    Safety    and Health      Administration             35

               D.     The Occupational       Safety    and Health     Administration   39

               E.     Departmental    Management                                       41


CHAPTER   II         ORGANIZED    CRIME AND RACKETEERING                               43



CHAPTER   III         EMPLOYEE    INTEGRITY,      OIG INTERNAL      AFFAIRS
                      AND THE HOTLINE                                                  47




APPENDICES

     - Audit Resolution           Activity                                             50
     - Status         of Unresolved      Audits                                        51

     - Summary         of Audit Reports       Issued                                   52

     - List         of Audit Reports                                                   53

     - Summary         of Investigative       Activities                               64

     - Cases Referred            to the U.S. Attorneys                                 65
MESSAGE    FROM THE ACTING       INSPECTOR    GENERAL



Pursuant     to the provisions      of the Inspector          General    Act of 1978,       I am pleased

to transmit     this report concerning         the activities        and accomplishments            of

this Office     during    the period April      I, 1980 - September             30, 1980.



I suppose     that every good message         must    have a theme--one          which, more      than

any other,     ties together      the major    events which       occurred       in the period

covered    by the report.        The clear    choice    in this period          has been    the chal-

lenge of conducting        the operations      of the Office       of Inspector         General     in

the context     of a government-wide         hiring    freeze.



In the case of our Office,          which    is virtually       entirely    dependent       upon per-

sonnel    to undertake     its responsibilities,            the freeze    limited       us to 80 percent

of authorized     strength.       For this reason,          our anticipated       levels of audit

and investigative        activity   could not be met and our new Office                   of Loss

Analysis    and Prevention       could not become       adequately       staffed.        However,    we

recently    have received     some relief      from the limitations             of the freeze.
With    the increased     staff hired   pursuant       to this relief,          we should be able

to significantly       upgrade    our efforts--particularly             those    of the Office       of

Loss Analysis     and Prevention.



There    is another    side to the freeze.           For,    in a way,    it can symbolize          the

very    goals this Office was created          to promote.        It is a symbol          of "belt-

tightening",     of trying    to provide      essential       services    with    less, of looking

for ways    to enhance     the efficiency      and productivity          of current       programs.

To this extent,       the freeze has placed          a premium    on creative       planning,       new

approaches     and enlightened      management.        We have    regarded       this    time as an

investment     in our future.       I would    like to take this opportunity                to.high-

light some of these efforts.



In the investigative        area, we have made much            progress    in developing       ways

to better    target    our investigative       resources.        Within    our Office       of Organized
Crime and Racketeering,         mission       and strategy       papers    have been       developed

for each     field office.      These       documents    analyze    the organized          crime    and

racketeering     problem     in the area,       assess how OIG resources             could be used

to have     the greatest     impact    and outline       an investigative          strategy    for meeting

operational     objectives.         In the program       fraud area,       the Office       of Investi-

gations     has established     a system       for prioritizing        case workload.



In both     of these investigative           programs,    we have    launched       a specialized

analytic     training     program    which    should    result    in better       targeting    of investi-

gative    resources     and help     insure    that investigations          are conducted          with

maximum     efficiency.



In the audit area, our Office               of Audit    has moved    ahead    with    a number       of

initiatives     including     the selection       of audit       targets    based    on risks, vul-

nerabilities     and potential        weaknesses,       and the prospects          for development
of significant     findings     and recommendations          that will       improve       financial

and other     operations.      As part of the process,             we have    revitalized          and

increased     our commitment        to internal       and special    impact       audits.     To plan

this effort,     we are developing           a two-year    internal       audit    plan,    and have
intensified     the allocation        of resources       to the internal          audit    effort.        A

comprehensive     auditor     training       and professional       development       program       geared

to sharpening     and broadening        auditor       skills has also been developed,                and

we have     implemented     a new grantee-procured          audit    strategy       whereby    grantees

arrange     for their audits,        thus    freeing    OIG auditors       for other       audit    activities.



In the loss prevention         area, we established          the Office       of Loss Analysis

and Prevention     (OLAP)     to provide       us with    the capability          to analyze       systemic

vulnerabilities       to fraud, waste         and abuse    and to design          countermeasures

to prevent     or minimize     loss occurrence/recurrence.



I am pleased     to announce        that during       the latter    part    of this reporting             period,

we completed     our senior     staff recruitment          with    the appointment          of Mr. Salvatore

J. La Barbera     as Director       of the Office        of Loss Analysis          and Prevention.




                                                 ii
Mr. La Barbera        is uniquely      qualified    to lead this        important      new OIG Office

and has had extensive          experience     directing      asset    protection       programs    and

in related       areas of internal       security    and fraud and criminal             investigations.



Prior    to coming     to the Labor Department,            he held    numerous     positions      in New

York    City government       including     Director      of Loss Analysis       and Prevention          in
the Human Resources          Administration,       Director      of Corruption      Analysis      and Pre-

vention    in the Department        of Investigation         and Chief       of Project     Review    of
the Mayor's       Criminal    Justice    Council.



During    this reporting       period,    a number       of OLAP assignments        have been      substan-

tially completed,          including    those conducted       in the area of the Comprehensive

Employment       and Training    Act,    the Federal       Employees'     Compensation       Act, and

Black    Lung.     As I have previously        indicated,        I believe     that OLAP     is central

to the mission        of the OIG,      and offers    the Department          a unique     opportunity

to reduce     fraud and abuse in DOL programs               by identifying       and blocking        loss

opportunities.        For this reason,        I am particularly         pleased     and encouraged

by the progress       we have made       in this area       since    our last report.



Two of our projects          deserve    special    note.     We have    initiated       and are leading

a multi-Departmental          project    relating    to the Federal          Employees'     Compensation

Act Program.        This    is a pilot project       in which       we have    developed     a profile

of a high risk claimant.            By comparing         the profile    data with       income-reporting

sources,    we will     determine      possible    unreported       income.     The participating
agencies    will    follow up with       appropriate       investigations.        This project        shows

great    promise.     We are hopeful        that this_ project        will    result    in significant

savings    and programmatic       recommendations.           Participating       agencies     are enthusiastic.

I should     also mention      the MSHA     project,     which    is continuing.          Preliminary

findings    of this project,        which    are discussed        in the text of this report,

are also     significant.



In addition,       the OIG has developed          cooperativ_       working    relationships      with

all parts of the Department.              I am pleased       by all these       efforts.      In par-
ticular,     I note    the cooperation      we have      received     in terms     of obtaining      relief




                                                   iii
from the hiring         freeze.       Also    of special     note    is the working      relationship

we have     developed       with    the Employment        and Training     Administration        (ETA).

We recently        signed    a Memorandum        of Understanding        with ETA establishing              the

working     relationship       between       ETA and OIG on investigative            matters.      A similar

agreement     in audit matters           is in final       draft.     This will     principally        address

issues     arising    from    the issuance        of audit    reports     and resolution        of audit

findings.      I should add that while              ETA is working        hard    to more promptly          re-

solve audit        findings,       a huge backlog        of unresolved     findings    remains.



On an OIG-wide        basis,       we have    implemented     a number     of management        improve-

ments.      The OIG task force on training                 has designed     an employee        orientation

program,     has coordinated          the development        of training     profiles       for all major

OIG occupation        categories       and has initiated         a program       of individual     develop-

ment    planning     for all OIG employees.              Also,   we have    established        a system

of quarterly       management        meetings    which     have been extremely        effective        in
identifying     problem       areas,     in designating       planning     initiatives        and in achieving

a collective       sense of direction.            We are working         to streamline        management

and operating        procedures,       and to complete        development        of major     policy    is-

suances     and establishment          of an OIG directives           system.



Additionally,        our evaluation          of OIG audit     contracting        procedures     is nearly

complete.      Implementation          of the recommendations            of the evaluation        will

strengthen     and improve          the audit    contracting        procedure.      Based     on changes

already     implemented       for one of our procurements,               the cost    savings     to the

OIG using     revised       scoring    weights    could    be significant.          Since     most Federal

agencies    use the same scoring              weights    we previously      used,    I expect     that

our findings       will have        government-wide        impact.



Thus,    despite     the hiring       limitations,       we have maintained         a level     of audit

and investigative           activities       of which    we can be proud,         and have     undertaken

a number    of important           management    initiatives.         This Office's     ability        to

make    this progress        is, I believe,       a real tribute         to all OIG employees.

They have my       sincere     thanks    and appreciation.




RONALD    GOLDSTOCK
Acting    Inspector     General
                                                    iv
CHAPTER     I.    PROGRAM    AGENCIES    AND DEPARTMENTAL        MANAGEMENT




A.   THE EMPLOYMENT         AND TRAINING     ADMINISTRATION



The Employment       and Training       Administration      (ETA)    constitutes       by far the                •

largest    program    agency within        the Department       of Labor     in terms    of funding.

It receives       over 90 percent        of the Department's        annual    budget.     ETA is respon-

sible for formulating           the Nation's    employment       and training      policies,      programs

and systems.        It is also responsible          for administering         the Nation's       apprentice-

ship, work       training,    work experience,       employment      services,     and unemployment

insurance    programs.        In formulating     and administering           its programs,       ETA

gives special       emphasis     to the needs    of the disadvantaged,           unemployed       and

underemployed.



The largest       of the employment       and training      programs    administered       by ETA

are those authorized          by the Comprehensive        Employment       and Training      Act (CETA)

and subsequent       amendments       to this Act.      Under    the Act,     as amended,     473 prime

sponsors,    which are state and local governments,                 and combinations         of local

government       units with populations        of i00,000       or more,     receive    direct Federal

grants.     These prime sponsors          use CETA grants        to design     and operate       their

own comprehensive       work experience        and training       programs     to meet    local needs.



The prime sponsors          operate   the projects      themselves,     or contract       with    other

groups    to provide    work    experience     or training       services.      Generally,       states

are responsible       for programs       in areas    that are not served by local prime

sponsors.        In addition,    ETA's Office       of National     Programs     (ONP) provides

funds to a wide       range of public        and private     organizations       with    special       capa-

bilities    to provide       employment     and training     services.        These    ONP grants

provide    special    Federal    assistance     to Native       Americans,     migrant    and seasonal

farmworkers,       older workers,       and others with      particular       job disadvantages.



Under    CETA, economically        disadvantaged       persons    who are unemployed         or under-

employed    can obtain       training,    upgrading,     retraining,       education,     public       service
                                                          2


    employment       and other    services       to qualify       them     for jobs.     During     FY 1980,

    over    3.5 million      persons     were    served under       the various        programs     provided
    by CETA.      Almost     400,000     individuals       were    employed      in public      service    jobs

•   under Title Vl--a         countercyclical        program       designed      to provide       temporary

    jobs    for unemploYed       workers    during     periods      of high      unemployment.        Approximately

    1.6 million      persons     were    also served          last year under       CETA Title      ll--which

    consists    of programs       designed       to aid the structurally              unemployed,     many    of

    whom    lack necessary       job skills,       have       inadequate    education     or who face other
    labor market      barriers.         These    activities       provide      for on-the-job       training

    and upgrading,       classroom       and skill     training        and work      experience.      Supportive

    services    also are included          such as transportation,              child    care and medical
    services.



    CETA    also serves      disadvantaged        youth--approximately              1.4 million     in FY 1980

    under    five separate       training       and employment         efforts.      They are the Youth

    Incentive     Entitlement      Pilot    Projects,         the Youth     Community     Conservation        and

    Improvement      Projects,     the Youth       Employment       and Training        Programs,     the Summer

    Youth Employment         Program     and the Job Corps.              In addition,     Title     VIII   of CETA

    provides    for a Young Adult          Conservation         Corps,     administered      by the Departments

    of Agriculture       and Interior.



    Finally,    in an effort       to gain greater            participation       of the private       sector

    in employment      and training        programs,       a Private       Sector    Initiative      Program

    (PSlP)    has been established          under Title         VII.      Private    Industry      Councils    have

    been    set up for most prime          sponsors       and in FY 1980 approximately               85,000 persons

    were    served   under    this activity.



    In cooperation      with     the Department       of Health          and Human     Services,     ETA also

    administers      the Work    Incentive        (WIN) program        which    is designed        to help    re-

    cipients    of Aid to Families          with Dependent          Children      (AFDC) move       from welfare

    to work.     At the local level, responsibility                      for WIN operations         is shared

    by the WIN sponsor         (usually     the public         employment      agency    or Job Service)

    and the public      welfare     agency.
                                                   3


In conjunction       with    the affiliated    State         Employment     Security    Agencies    (SESAs),
ETA administers       two kinds       of Federal-State         programs.      Under    the direction

of the U.S. Employment          Service,    the State         Employment     Service    Agencies    (or

Job Service)    operate       a network    of over 3,000         local     offices    tO assist employers

in filling    job vacancies       and to serve persons            in need     of employment       including

those eligible       for unemployment       benefits.          Unemployment     compensation       programs

are administered       through    the U.S. Unemployment            Insurance       Service.     The states

have direct    responsibility          for operating         UI programs     and pay benefits       out

of funds collected          through    a payroll       tax on employers.        The Federal       govern-

ment   establishes     guidelines       and pays administrative            costs     from funds    collected

under provisions       of the Federal       Unemployment         Tax Act (FUTA).         The largest

single benefit       program    operated    by the SESAs         is UI which       provides    temporary

income    as partial    compensation       for involuntary         job loss.         Under   other programs,

benefits    are also provided          to persons      who    lose their     jobs by reason       of foreign

imports    Or natural       disasters.
                                                   4



Audit     Effort   Involving       ETA Programs



  -     State and Local       CETA Program        Audits



During     this reporting      period,       the OIG      issued 65 audit         reports    on state

and local CETA programs.               These    audits     took exception         to $47.2 million, i/

Unresolved     subsponsor      audit exceptions,           insufficient       documentation,        reim-

bursement     of participant         wages     in excess    of the allowable           rate and ineli-

gible     participants      continue     to be major       problem       areas.     Many    of the unre-

solved     subsponsor      audit     exceptions    resulted       from    ineligible       participants

or a lack of documentation              required       to support    eligibility.



In an effort       to help minimize          these problems,        the audit       reports    included
corrective     recommendations          for each weakness          noted.     In addition,        OIG has

begun     development      of a two year plan           for internal       and special       impact audits

that will     include      broader     review    of specific       problem    areas     in CETA operations.



OIG projects       such as evaluation           of the CETA eligibility             determination       and

verification       system    are also being        carried    out by the Office             of Loss Analysis
and Prevention.




i/ Throughout       this report,       audit     exceptions       include    both questioned        costs

and costs recommended          for disallowance.            Questioned       costs    are expenditures

without     sufficient      documentary        evidence    to enable       the auditor       to make    a

conclusion     as to allowability.              Costs    recommended       for disallowance       are

expenditures       which    the auditor        judges,    based    on available       evidence,     to be
unauthorized       under the terms of the grant.
                                                 5




A summary     of the major      reasons   for audit      exceptions   is shown below:


                                                Amount    of             No. of Reports
  Audit Exception                               Exceptions               With Exceptions

Unresolved Subsponsor          Audit
  Exceptions                                    $ 8,492,317                        41

Improper Allocation of
  Administrative  Charges                             870,759                      14
Insufficient     Documentation                   14,543,170                        31

Ineligible     Participants                       3,595,766                        32

Reimbursement of Participant
  Wages in Excess of Allowable
  Rate                                            6,150,804                        16

Reported Expenses in Excess
  of Recorded Expenditures                          1,119,502                        7

Nepotism                                              381,320                        3

Budget    Exceeded                                2,093,524                          8

Unallowable     Indirect    Costs                   1,620,095                        6

Unallowable     Accrued    Expenses               5,777,988                          2
Unallowable     Subcontractor
  Activities                                          522,054                        4

Unallowable     Charges    for Fringe
  Benefits                                            487,589                        i

Other                                               1,558_975                      21
                            Total               $47,213,863



The illustrative        examples    presented    below    highlight    significant       findings      and

typical     problem    areas   identified    during      the reporting   period.


  -      One audit recommended         disallowances      of approximately    $7 million.         In

an initial     determination        sent to the grantee,        ETA stated   that approximately

$5 million     would    not be allowed      under    the regulations     based   on:     excess
reimbursement    of salary payments            for public       service    employees,    excess    cash

transfers,    excess     indirect    costs,     ineligible      participants        and subsponsor

audit    exceptions.



  -     In another     report,    the auditors     recommended       for disallowance       approxi-

mately    $1.6 million     because    of differences        between       amounts   reported   to ETA

as costs on the "Financial           Status     Reports"     and amounts      included    in the

grantee    financial     records,    which     could    not be explained       or documented       by
the sponsor's    staff.



  -     In the audit of one major            grantee,    over $6 million       was recommended          for

disallowance.        The major reason        was that accruals        of over $5 million          for

wages    and fringe    benefits     as of September        30, 1976 were       not reversed       in

the subsequent       period,     beginning     October    I, 1976.        The grantee    thus claimed
and was reimbursed        twice    for the same costs.



  -     The auditors,     in another    report,        stated   that the grantee        was six months

behind    in reconciling       its cash balance         for CETA    to the city accounting             system

cash balance.        Additionally,     several     subgrantees       were    not performing       bank
reconciliations.
  -     Follow-up   Review    of the Summer Youth       Employment       Program


During    this reporting      period,    OIG initiated     a follow-up       review      of the Summer

Youth    Employment   Program     (SYEP).    This    follow-up     review was conducted         at

the Office    of Youth Programs         in the National       Office    and at 116 work       sites

of four prime sponsors         located    in Washington,       D.C.,   Chicago,      Denver   and San

Diego.     Its purpose    was to assess      the actions       taken by the Office          of Youth

Programs    on OIG's recommendations         made    during    the initial     comprehensive           SYEP

review    conducted    in FY 1979 at 2,230 work          sites.     Specifically,         in its follow-

up OIG focused      on:



(i) the adequacy       of comprehensive      planning,

(2) the adequacy       of training      provided    to work    site supervisors,

(3) the currency       and adequacy      of work    site agreements,

(4) the adequacy       of work    site screening      and supervision,

(5) the utilization        of standardized      monitoring      instruments,

(6) the promptness        and effectiveness        of corrective       actions,    and

(7) the eligibility        of participants      at the work       sites.



The field work      for this follow-up       review    was performed       in August       and a re-

port    is being prepared.       The results       of this review will        be discussed        in

the subsequent      Semiannual     Report.



       Cash Management    Audit Review


The last Semiannual       Report    discussed      the initial     survey being       performed        to

assess    effectiveness      of cash management       practices     within    the CETA program.

During    this reporting      period,    OIG has expanded        the scope    and depth       of its

study,    and as a result,       the effort will      not be completed        for several      months.

OIG anticipates       significant    recommendations       for improved       CETA    cash management.
  -   Native    American    Program   Audits


During   the reporting      period,    three Native     American   audit    reports   were

issued which     took   exception     to $2.6 million.        The major    reasons    for

the exceptions     are shown below.



                                               Amount   of         No. of Reports
           Audit Exception                     Exceptions          With Exceptions

Unallowable     Contract    Costs              $1,189,161                   3

Improper Contracting        and
  Procurement                                     837,305                   2

Ineligible     Participants                       245,554                  3

Improper   Allocation      of Costs               209,325                   i
Insufficient     Documentation                    110,472                  3

Overbilled     Costs                                2,485                  3
Misclassified     Costs                                 484                 i

                           Total               $2,594,786
                                                9


  - Migrant     and Seasonal      Farmworkers    Program      Audits


During    the reporting     period,    ten audit    reports     were   issued    concerning   Migrant

and Seasonal     Farmworker       program   grantees.    These    reports   took exception       to
over    $6 million.     The major     reasons   for the exceptions        are shown below.



                                                Amount   of                     No. of Reports
           Audit Exception                      Exceptions                      With Exceptions.
                                                                                               .

Improper    Allocation     of Costs             _3,232,534                              6

Unqualified     Staff                               746,188                             2

Ineligible     Participants                         604,207                             9

Insufficient     Documentation                      581,461                             9

Improper Contracting        and
  Procurement                                       426,607                             4

Overbilled     Costs                                246,043                             7

Unallowable     Contract   Costs                    150,215                             4

Misclassified     Costs                              23,470                             2

Other                                                12,643                             5

                   Total                        $6,023,368
                                                     i0


  - Job Corps Program             Audits


Eighteen    Job Corps Center          audit     reports      were    issued    during    the reporting

period    which    took exception           to over $5 million.          The major       reasons     for the

exceptions       are shown below.



                                                Amount       of                         No. of Reports
         Audit    Exception                      Exceptions                             With    Exceptions

Bidding Procedures          Not
  Followed                                       $     544,539                                  i0

Lack of DOL Approval for
  Capital Improvements,
  Training Projects, etc.                              808,279                                  14

Insufficient       Documentation                     1,724,133                                  12

Inadequate       Staff Qualifi-
  cation                                             1,995,871                                  12

Inaccurate       Accounting       Records                 33,850                                 2

Nepotism                                                  42,328                                 2

Overpayments                                              62,268                                 8
                      Total                      $5,211,268



Two problems,       noted     at most      of the centers          audited,    together    represent       seventy-

two percent       of the audit       exceptions.          These     two problems        were    that:



  - instructors       and counselors           did not meet         the minimum    qualifications          es-

    tablished       in the contractor's           proposal,         or they had not obtained             the proper

    certifications          or licenses        for their      positions,      as required        by Federal

    regulations,       and


  - files maintained          by the contract             centers    did not adequately          document

    the allowability           of costs.       For example,          there    frequently       were missing

    employment       applications          and other       critical    personnel    documents,          missing

    purchase       invoices       and receiving        reports      and undocumented       bid procurements

    and purchases.
                                              ii


  - Office     of National         Prosrams/Office         of Policy     Evaluation         and Research
    and Other National             Prosram   Audits



During   the period,      OIG issued 98 audit              reports    on a variety          of National

contracts     and grants      funded      largely       through    either    the Older American          Act

or CETA.      This   includes       21 reports      that the HEW Audit             Agency    and Defense       Con-

tract Audit Agency        (DCAA) provided           to us.



The reports     were    issued      to:

                Office    of National        Programs                         59

                Office of Policy          Evaluation        and
                  Research                                                    20

               -Office of Cost Determination
                   (Indirect Cost Audits)                                     i0

                Other Federal         Agencies j/-                            9
                                                                              98


Fifty-eight     of these reports          pertain        to DOL-funded       programs       and contain    audit
exceptions     that are summarized           below       according    to major       category       of exception.



                                                    Amount    of                      No. of Reports
         Audit Exception                            Exceptions                        With    Exceptions

Ineligible     Participants                         $     265,221                               8

Insufficient     Documentation                          6,725,451                              44

Budget   Exceeded                                         929,798                              21

Improper Allocation of
  Administrative  Charges                                 194,637                              12

Overpayments                                               89,169                              16

Other                                                     370,983                              19

                           Total                 $ 8,575,259


                               /




i/ The reports       issued    to other Federal            agencies    were    the result of audits

of these agencies'        funds at grantee              locations    where    the majority          of the funding
was from     the DOL.
                                           12




One of the more      significant     reports    questioned     approximately      $1.4 mil-

lion   in a project    that was operated        through   a series      of more   than 20

subcontractors.       The subcontractors        established     many    "businesses"     or,

as they were    termed   "Service      Projects,"    for the purpose       of providing

supported    jobs   for groups     of individuals     with    particular    difficulty

in obtaining    jobs because       of special   employability      problems.



The auditors    could not issue an opinion           on the financial       statements

and issued    an adverse     opinion    on the internal      accounting     and administra-

tive control    procedures     in use.     The controls      were particularly         poor

in some of the subcontractors           and service    projects,       and no plan existed
for the disposition      of supported      work businesses       and capital      assets

purchased,   at such time as the program            is terminated.
                                                   13


  - State Emplo_ent           Security        Asenc_    Audits    and Reviews


OIG issued     six audit reports          concerning       SESAs       during   the reporting        period.

The reports     took exception         to over $7 million.               The major    reasons      for the ex-

ceptions     are presented       below.


                                                       Amount    of                 No. Of Reports
         Audit Exception                               Exceptions                   With Exceptions

Insufficient     Documentation                         $ 3,996,731                            3

Unresolved CETA Subsponsor
  Audit Exceptions                                         338,568                            I

Unallowable     Costs                                    2,343,258                            4

Ledgers    Not;Properly       Closed     Out               212,424                            i

Non-Federal     Share Not Provided                         113,713                            i

Current Obligations          Charged     to
  Prior Year                                                 31,700                           i

Ineligible     Participants                                  21,091                           i

Inappropriate        Training                                   3,361                         I
                              Total                     $7,060,846

Highlights     of some of the more             significant       problem    areas    are presented       below:

--In one case, auditors           were    unable       to render       an opinion    on the reliability

of one state agency's           financial       reports    to the Employment          and Training       Adminis-

tration.      They    pertained     to Federal         unemployment       compensation       and CETA wage

and allowance        payments.     Accurate       lists    of outstanding          checks    could    not be pre-

pared by the agency--which             was carrying        differences          totaling    $613,420    in its
reconciliation        work   papers.      Also,    excess       Federal    cash held by the state           agency

resulted     in computed      interest        lost to the Federal          government       of more than $60

thousand     over a seven-month          period.        In addition,       the state       agency lacked       pro-

cedures    to ensure     that data entering             the cost accounting          system are complete,

accurate,     fully documented,          and reconcilable             with external     sources.       Finally,

the state agency--as            the CETA balance         of state       prime    sponsor--failed       to perform

audits    of about     125 subsponsors          which    had costs       of over $i00,000         a year.
                                                  14


--A second     report     disclosed      that cash balances         had not been reconciled          between

the employment        service     and the central       organization,        that numerous      errors were

made     in recording     letter    of credit     and miscellaneous          receipts    in the general

ledger and in many         individual        fund ledgers,     and that monthly         reconciliations

were   not made     between     the time distribution          subsystem--which         generated    cost data--

and the actual        payroll.



--In another      SESA,    the financial        system was not centralized             for maximum      control,

required     Federal     financial    statements       had not been prepared,           and documentation

for benefits      and allowances       costs     for a 19-month       period    had been    destroyed      prior

to the expiration         of the required        three-year     retention      period.



--After     a limited-scope        review    in another    state     agency,    we reported      on (I) the

use of holding_ledgers            to temporarily       transfer     and account     for CETA     subgrant

expenditures      which    were    in excess     of amounts     in budgets,      (2) contracts       awarded

to the agency       by various      CETA prime     sponsors    made    after    the designated       contract

period,     (3) duplicative        costs charged       indirectly     through    the cost accounting

system     to the wrong       fund ledger,     and (4) charges        for items not allowed          by regu-

lations    or contract      specifications.



As reported     in the last Semiannual           Report,      there have     been large     gaps in audit

coverage     of programs      operated      by State    Employment     Security    Agencies      (SESAs).

This   lack of audit coverage          was especially        evident    during    this reporting         period.
In some     instances,     the six reports        which were      issued    reflected     limited    scope

reviews.      Thus, even      in some of the six state            agencies     reviewed,    significant

gaps   in audit     coverage      remain.



We previously       reported      that one avenue       for alleviating        these    audit   coverage

weaknesses     would    be the increased        use of grantee-procured           audits by SESAs

and the provision         of necessary       funding    to SESAs     to undertake       such audit      activ-

ities.     The Employment         and Training    Administration        (ETA) has obtained          Depart-

mental    approval,     and is seeking        OMB approval,       for $6 million        in its FY 1982

budget    request     to be allocated        to some of the 54 SESAs           in order    to pay for

SESA-procured       audits.       Approval    would    be consistent       with OMB Circular A-102,

Attachment     P, which    requires      that grantees       be audited      at least every       two

years.
                                                 15


An area of continuing           interest    to the OIG in the UI programs             is benefit

payment     control,    which    refers    to the systems       used by the SESAs        to detect

overpayments       of unemployment        benefits.      The issue was discussed          in this

Office's     last Semiannual       Report.     An interim       report    for the National       Com-

mission     on Unemployment       Compensation        (NCUC),   "Estimating     Overpayments       and

Improper     Payments    in the Unemployment           Insurance    Program,"    is being      prepared.

The purpose       of this study is to estimate            the rates      and amounts     of overpay-

ments    and improper     payments    in the unemployment           insurance    program      in selected

cities.      The study was conducted          in seven     cities    in six different         states

based on a sample of unemployment              compensation        payments,    during    the period

October     i, 1979 through March          30, 1980.



One major     limitation    to the NCUC       study     is that information        related     to over-

payments     in any individual       city is held        in strict    confidence      which   makes

the study somewhat        less valuable       to us in identifying          specific     problem    areas

in those respective        cities.        In addition,     the cities      selected    for analysis

were    not randomly     selected    from a nationwide          sample    of UI jurisdictions.

Thus,     the findings    of the study are valid           only    for the six project         cities.

Much more needs        to be done to develop          a valid     nationwide    estimate      of over-

payments.      However,    the preliminary        findings      of this study will        probably

generate     concern    and serve to emphasize           the serious     vulnerabilities,        espe-

cially    given    the current     gaps in external        audit    coverage    of SESAs.
                                                        16


-     OIG/ETA    Audit Resolution          Activities



The need       for prompt       and careful       resolution     of audit        findings      is a major        issue

which    has been       raised    frequently       by GAO,     the Congress,        OMB and the Department

of Labor.        The need       to seek improvements           in this critical           area has recently

been highlighted          in the report          of the Department's           Audit    Review     Committee,

and in OMB's       issuance       of revisions       to Circular        A-73     concerning       audit    follow-

up.     Both    of these documents          stress    the importance           of resolving        audit    recom-

mendations       expeditiously,          of developing       systems     that will        track    audit    reso-

lution progress,          of establishing          procedures     for settling          internal     differences

on corrective          action    needed,    and of undertaking           periodic       evaluations        of the

agency's       audit    follow-up       system.



We,    in the OIG,       continue       to be concerned        about    the high       level   of unresolved

audit reports.           A comparison       of audit     resolution       statistics        included       in the

appendices       of this report,          with    similar    data in previous           reports,     demonstrates

progress       in some areas.          However,     the overall        dollar     total    of unresolved

audit    findings       continues       to climb.     As of September           30, 1980,      there were

over 987 audit          reports    with    dollar    findings     of $283 million           awaiting       reso-

lution.        About   $185 million        has been outstanding           over one year.



ETA and OIG established                a special    task group      to address         audit   resolution

problems       and other other matters             of mutual     concern.        Draft     procedures       have

been developed         concerning       both     issuance    and resolution         of audit       reports.

These    should    be finalized          shortly.     Once    implemented,         these    procedures       should

facilitate       audit resolution.             But in themselves,         revised       procedures        will

not be successful          in reducing         the backlog.      Rather,        ETA management        must       estab-

lish a timetable          for the resolution          of open audit        reports.         Such    a timetable

would    be consistent          with   the language     contained        in Section        305 of the Supple-

mental    Appropriations          Act of 1980, dated         July      8, 1980,    requiring       all pending

unresolved       audits    of appropriations          covered    by the Act         to be resolved          by

September       30, 1981.        Additionally,       any new questioned           costs     are to be resolved

within    six months       after issuance          of the audit        report.
                                             17


Investigative       Effort    Involving    ETA Programs


The mission       of the Office       of Investigations       is to administer          an independent

and objective        investigative      program    in the Department          covering    internal,

contract     and grant activity         with the objective          of preventing,       detecting,

and serving       as a deterrent       to criminal       activity,    program     fraud and abuse.

In carrying       out this mission,       the majority       of resources       within    the Office

of Investigations        is allocated      to investigating          allegations     of fraud      and

abuse within       ETA programs,       particularly       programs    funded    under    CETA.     A much

smaller    portion     of the investigative         resources       allocated    to ETA programs
is devoted     to investigating         allegations       of false    placement     statistics      by

state employment        security      offices.



During    the period April       i, 1980 to September             30, 1980,    this Office       opened

ii0 investigative        cases involving         ETA programs,       and closed     167 cases.

During    this period,       we referred    to the U.S. Attorney             for criminal     prose-

cution    47 cases involving          CETA and other       employment      and training      related

violations.       Between     April    I and September       30, 1980, ETA related           investi-

gations    have    resulted    in 13 indictments          and ii convictions.           The balance

of the cases referred          to the U.S. Attorney          are either       pending    further    action

or prosecution       has been    declined.        When    cases    are declined     by the U.S.

Attorneys,     they are either        referred     to state       or local    authorities     for their
prosecution       or to program       officials    for administrative          action.      Administra-

tive action       is taken when cases are prosecuted,                since    the purpose     of the

Inspector     General    Act is not only         to prevent       fraud   and abuse but also to

promote    economy    and efficiency.        Tables       showing    a breakdown,       by region,
of the current       status    of cases referred          to U.S. Attorneys        during    the re-

porting    period    are in the appendix.
                                                18


Monetary     results    due to investigative         activities     amounted    to $49,795    in
                                                                                                        i/
recoveries,       $359,232   in savings,     $12,000    in fines     and $262,925      in claims.-

The following       table shows a breakdown          of these     data by region.




i/ Fines     are the sums of money       imposed      as a penalty     upon    defendants    after

an administrative        hearing,    civil   suit, or criminal        prosecution;       recoveries

include    the restoration,      restitution,        or recovery     of money    or property       of

known value       that was   lost through    a crime, mismanagement,            etc;   collections

are the receipt        of payments    of an indemnity      to end a civil        transaction,       suit

or proceeding;       savings   are the prevention        of dollar     value    losses    to the Govern-
ment;    claims    are the dollar value      of indemnities        which   have been administra-

tively    determined     by a DOL agency.       For example,        if a state    loses $i0,000

in CETA property,        and an OIG    investigation      determines       that the loss was at-

tributable     to negligence,       the DOL program      agency     administratively       estimates

a claim against        the state for $i0,000.
                                                 19




                   I
                            o
                            0

                            0
                                _   I    I
                                                      o
                                                      0

                                                      0
                                                            I    I
                                                                            o
                                                                            0

                                                                            0




0                  I    I       I   I    I            !     I    I    I       I
E--t
<




I-,-,4




,--I               I   I    I       I    I            r_.   I    I          O_

 I
Z
0
I.-I




Z            OI   '_                                            _           -.'r
)-I


,,<


Z
Z




Z
.<


z        _   N


                                                                 0

                                                      4-I       .M



         Z         _    0   _       ¢_   _   _        _     _    _    _-_
         0         0   _     m      _    _   _        m     •   _    -_.




                                                                            0




             Z
                                                    20



The more     significant       convictions       and indictments         during    the period     April      I,

1980     to September     30, 1980 involving          ETA Programs         are described      below.



--     In Houston,     Texas,    a Federal       Grand   Jury    indicted     the Executive       Director,

the Comptroller        and a supervisor          of a well-known         organization      for the misuse
of CETA     funds.     The Executive         Director    was    indicted     on six counts       of false

statements     and misapplication            of CETA funds, while           the Comptroller      was in-

dicted     on two counts       of misapplication         of CETA     funds.       The third    individual

was    indicted     for perjury.



Both    the Executive        Director    and the Comptroller           of this organization           were

previously     indicted       for falsifying        time sheets      and threatening       CETA-paid

workers     with    losing    their jobs or losing other             benefits      if they did not

engage    in political        activities.        After   a five day trial,          the Comptroller

was convicted        of submitting       false    statements.        The other      two individuals

are still awaiting           trial.



--     A Kansas    City, Missouri        business    owner, who was a CETA            subcontractor,

was convicted        of one count of misapplication               of CETA     funds and seven         counts

of filing     false statements.           This    individual      had a CETA       subcontract       to operate

a combined     Classroom       Training/On-The-Job          Training     Program     in machine      opera-

tions.      Part   of this individual's           scheme    was to bill       the prime    sponsor      for

non-existent       instructors        and false machine         rental   time.     Additionally,        CETA

participants       were being used        to make    products      which    were   then sold

for the benefit        of the company.



--     In Dallas,     Texas,    an illegal       alien was arrested         and charged       with   ob-

taining     a visa    by fraud.       This   individual        also used    false and fraudulent

documents     to obtain      a Department        of Labor    Certificate       for Alien      Employment.



The U.S. Attorney's          Office     moved    to dismiss      this charge based        on an agreement

with    the Immigration        and Naturalization          Service   to undertake       deportation

action.     This     is the first case of this type               investigated      by OIG.
                                                  21



--     A Boston,    Massachusetts       CETA Counselor       was sentenced         to one year im-
prisonment    with     the first three months           to be served       and the remainder          of

the sentence       suspended.      This     individual    was also placed          on two years       proba-
tion and ordered        to make    restitution       in the amount        of $9,063.        This    indi-
vidual    had been     indicted    on 47 counts        of embezzlement        of CETA      funds and

later had pleaded        guilty    to ten counts        of embezzlement.           The investigation

disclosed     that, during       the period July        24, 1978 through          August    24, 1979,

126 CETA participant          checks had been        converted     to this individual's             personal

use.     By manipulating        time and attendance          records    and forging        signatures

on payroll     registers,       former students        and non-working        students      were    carried

on the rolls.        Since    this person      also had charge         of distributing        payroll
checks,    he was able to forge endorsements                 and cash the checks.            This    case

again illustrates        the vulnerability          of CETA funds when         proper      payroll    con-
trois are not established             and followed.



--     A former Dallas       County    CETA Coordinator        pleaded     guilty    to one count

of a nine     count indictment         charging   misapplication          of CETA    funds.        This

individual    had falsified        CETA intake       forms    for ineligible        applicants       in

return    for payments.         It is estimated        that this individual          had received

at least $800 per month           in kickbacks       for the past three           years.     In a related

case, another       former CETA       Coordinator      for Dallas      County was sentenced           to

90 days in jail and 15 months             probation      after    he had pleaded        guilty      to one

count of filing        a false statement.         This    individual      had previously           been

indicted     on nine    counts    of misapplication          of CETA    funds.



--     A former Executive        Director     of a non profit       organization,          which    was

a delivery    agent     for the City      and County      of Dallas,       Texas,    pleaded       guilty

to four counts       of misapplication         of CETA funds.          This   individual      has ad-
mitted    to over $50,000        in fraud     on this contract.



--     In Dallas,    Texas,    the former President           and Director        of a CETA subgrantee

was sentenced       to five years       in prison      and a $5,000       fine.     The sentence was

reduced    to six months       in prison      and 54     months    probation.        This individual

has previously       waived    indictment      and pleaded       guilty    to a one count          informa-

tion which     charged    the theft of Government             funds.
                                                    22


This conviction        was the result       of an OIG investigation               into allegations

of political       corruption      by County      and Federal        Officials.      The case       involved
hundreds       of thousands      of dollars      of Federal     funds     and included       funds    from

HUD,    HEW, DOL, USDA,         CSA, and the State          of Texas.      This    case    is a good example
of the need       for a unified      audit approach          to safeguard       Federal     and State

funds in CETA prime           sponsors    and their        subgrantees.



--     Three    individuals     pleaded    guilty        in Federal    court    at Hartford,        Connecticut,

to one count violations            of misapplication          of CETA     funds.     They had previously

been    charged    in a multi-count        indictment        with misapplication           of CETA funds,

false statements          and conspiracy.         They had conspired           to issue     fraudulent

checks     to CETA participants          which    were     then forged     and deposited        to a personal

business       account.    At    least $35,875      was converted         to their    own use.



These    convictions       are only the initial            results    of a joint     investigation

which    is expected       to produce     additional        results.     The case     is significant
in that     it resulted       in the breakup       of a government         contractor,       who had received

several    million     dollars    in contracts,          and who was defrauding            a number    of
CETA    prime    sponsors.



-- The former       Property     and Procurement          Officer     for the CETA        program    in Atlanta,

Georgia,       was sentenced     to five years       in prison        on each     of three     counts,

to be served       concurrently.         This    individual     had previously        been     indicted

on 26 criminal       counts     which    included    conspiracy,        false     statements     and extortion

and had pleaded        guilty    to three of these           counts.
                                                                23



      -    OIG/ETA        Memorandum       of Understanding


In order to enhance                 coordination         between       OIG and ETA, a work group               consisting

of representatives                 from the Office         of Investigations               and from ETA was es-

tablished.            The work        group has had several              meetings         to establish     uniform

policies           and procedures          which would       be of mutual          benefit     to both agencies.

Some       of the areas covered                included    reporting       and investigating            allegations

received           through       ETA Incident      Reports;          providing     feedback     to ETA requests

for investigations                 and Ol referrals          for administrative              action;    coordinating

matters        of mutual          concern,      such as training          or handling         of GAO Hotline

Summaries;           and the handling            of OIG requests           from ETA for information,                   assist-

ance and program                 expertise.



A Memorandum              of Understanding         between       OIG and ETA has recently               been signed.

Implementation              of this agreement            will    improve     and consolidate           an already
well-established                 working      relationship       between     the agencies.



Loss Analysis              and Prevention         Effort     Involving       ETA Programs



      -    Evaluation        of the CETA Eligibilit_. Determination                        and Verification            Programs



The       Office     of   Loss     Analysis      and   Prevention        (OLAP)     has    nearly     completed         the

task of evaluating                 a number      of CETA eligibility              determination        and verifi-

cation        systems,       and developing            recommendations           for program        improvement.

This       analysis        is in response         to a general          belief     that, with        respect      to

abuse,        error and inefficiency               in the eligibility              determination        process         of

some CETA grantees,                 systemic      and administrative              weaknesses        are often     signifi-

cant causal           factors.         Thus, OLAP's        efforts       have     been directed        towards         eval-

uating        and improving           eligibility        determination          systems      and problem       areas

within        those systems.
                                           24



  -     Review    of Migrant     Farmworker       Housing    Conditions


The Office       of Loss Analysis        and Prevention,          at the request     of the Under        Secre-

tary's     Office,    conducted    a review       of migrant       farmworker     housing    conditions

in selected       areas    of Virginia,     Maryland,       and North     Carolina.     A total

of 72 migrant        camps were    inspected       in order       to assess     the degree    of effective-

ness    of present     DOL regulatory       operations.



Although     not part of the original             scope    of the review,       OLAP noted      a number

of supplementary          observations     relating       to interagency        coordination,     operating

procedures,       and migrant     employer       perceptions      which   may have    an impact     on

the overall       inspection     effort.



The    findings    and recommendations           contained     in the report       have been provided
to the Under       Secretary's     Office.



In response       to the OLAP     report,       the Employment       and Training     Administration,

with   assistance      from the Occupational          Safety      and Health     Administration,         is

conducting       an in-depth     review    of those       sites   identified      as having     significant
problems.
                                                  25


B.     THE EMPLOYMENT     STANDARDS    ADMINISTRATION



The Employment       Standards     Administration        (ESA)    through     its three     components--

the Office     of Workers'      Compensation     Programs,        the Office       of Federal      Contract

Compliance     Programs    and the Wage       and Hour Division--administer               laws and

regulations     that establish       employment        standards,    provide       workers'     compen-

sation    to those injured        on their    jobs and require           Federal     contractors       and

subcontractors       to provide     equal    employment        opportunity.



The Office     of Workers'      Compensation     Program        (OWCP)    administers     the Federal

Employees'     Compensation       Act, providing        compensation       benefits     for Federal

employees     and certain     other groups      who suffer        job-related        injuries,     diseases

and deaths.        Amendments     have brought       still     other groups     of workers       under

the Act,     such as members       of the Peace        Corps    and Vista     Volunteers.



OWCP also     administers       the Longshoremen's        and Harbor       Workers'     Compensation

Act,    covering    all maritime     workers    injured        or killed    upon navigable        waters

of the U.S., as well          as employees     working       on adjoining      piers,    docks     and

terminals.         A number     of other groups        are included       through     extension     of
the Act.



Black Lung benefits         under the Black      Lung Benefits           Act are also administered
by OWCP.      The Act provides       monthly    payments        and medical        treatment     to coal

miners    totally    disabled     from pneumoconiosis           (black    lung) arising        from their

employment     in the Nation's       coal mines.         Additionally,        the Act also provides

for monthly     payments      to the miners'      surviving       dependents.



The Office     of Federal     Contract      Compliance       Programs     (OFCCP) was established
in 1965 to administer         Executive      Order     11246.     Under    the Executive        Order

and two laws, minorities,           women,    members     of religious        and ethnic       groups,

handicapped     persons     and veterans      are protected         from job discrimination.



Government     contractors       are also required        to take affirmative           action     to hire

and promote     members     of protected      groups.        In 1978,     the Executive        Order     was
                                                  26


further     amended       to consolidate     all its operational            enforcement       activities

in the Department           of Labor.



The Wage       and Hour     Division    was established         in 1938 to administer           the landmark

Fair    Labor Standards        Act     (FLSA) which      includes      minimum     wage,    overtime     pay,

record-keeping           and child labor provisions.              Since    1938,    the Wage    and Hour

Division's       responsibility        has grown       to include      other    laws and regulations

protecting       workers     against    unfair    employment       practices.



These     include    the wage garnishment           provisions      of the Consumer          Credit     Pro-

tection     Act;    the Service       Contract,     Public    Contracts        and Davis-Bacon        Acts,

which     require    that prevailing        wages'be      paid on government          contract       work;

and the Farm Labor           Contractor     Registration        Act,    which     requires    that    farm

labor contractors          and others      observe      certain    rules    in the employment           of

migrant     workers,       including    registration       with    the Department          of Labor    before

contracting        begins.



Investigative        Effort    Involving     ESA Programs


During     the period      April     i, 1980 to September          30, 1980 this Office          opened

71 cases and closed           82 cases concerning          ESA/workers'         compensation     violations.

Monetary       results    during     this period,      due to investigative           activities       amounted

to $94,886       in recoveries,        $1,790,568       in savings,       $77,503    in claims       and $500
in fines.-i/        The table on the following             page    shows    a breakdown       of these data

by the region:



l/
--     Recoveries     include      the restoration,        restitution,         or recovery     of money

or property        of known value       that was       lost through       a crime, mismanagement,

etc.;    collections       are the receipt        of payments       of an indemnity          to end a civil

transaction,        suit or proceeding;          savings     are the prevention            of dollar value
losses    to the Government;           claims,    are the dollar          value    of indemnities       which

have    been    administratively        determined      by ESA;     fines are the sums of money

imposed     as a     penalty    upon defendants         after     an administrative          hearing,        civil
suit or criminal          prosecution.
                                                   27


                                 0                                                 0

                       I   I     _       I     I   I    I         I   I




                       I   I     I       I     I   I    I         I   I   0        0
                                                                          0        0




Z      _               I   I         I   I     I   I    I         I   I        I       I
0


<
r_
[-I




"_                     I   I         I         I   I              I   I



Z                                                                                   _
0                                                                                  to-



                                 O       0              u'_                        oo
                                 c'_     oO             .-,T                       oo

 D-_                             c__     _              -,,1-                      -,,1"


 C_
 <




 bt
 Z


       r.r-1




                                   _                                  u
                                 • ,-_                      I>,       m

                                     _                  .,.4          0

               _           1,4       _   _     0                      _       _)

       0       _=._   .0   _         _   _..   _   _    _         •   _




                                                                                       0




                                                                  >
                                                  28




During     this reporting     period,     OIG referred        to the U.S. Attorney         for criminal

prosecution     14 cases     involving     workers'      compensation-related          violations.

These     cases and others     previously        referred     resulted    in seven     indictments

and five convictions.          The remaining         cases    either   are pending      further    action

or have been     declined     for prosecution.           When prosecution        has been declined,

the cases     are referred     to program       officials      for administrative        action.

Tables     showing    a regional     breakdown     of referrals,       indictments,      convictions
and declinations        are in the appendix.



Some of the highlights         of the indictments            and convictions      obtained    as a

result     of ESA-related     investigations        are shown      below.


-- An Unemployment        Insurance     Claims    Fraud      Investigator      for the State      of

New Mexico     was sentenced       to three years        in prison     and fined $4,000       after

pleading     guilty    to filing false claims          and statements        to obtain     temporary

workers'     disability     compensation.        Civil    suit is being       brough t to recover
$56,755     in disability     benefit     payments     fraudulently       obtained   by this employee.



-- A former FAA Air Traffic            Controller      was    indicted    in Denver,     Colorado,

on two counts        for providing     false    statements      in connection     with his claim

for workers'     disability     compensation.          Our investigation        determined     that

he failed     to report    earnings     from employment         as required.      During     a 12-month

period,    the defendant      received     $43,500     in compensation        for temporary       disability.



-- A former     contractor/employee         pleaded      guilty    in Seattle,    Washington,          to

filing    a false claim under        the Longshoreman's           and Harbor    Workers'     Compensa-

tion Act.     Our investigation         determined       that he was fully       employed     while

collecting     disability     payments.        The defendant      was sentenced      to six months

and fined $500.        The sentence      was reduced         to 30 days     plus three   years     pro-

bation    on the condition      that he pay the fine.
                                                29



-- A former Department          of the Army     employee     pleaded     guilty    in Atlanta,

Georgia,     to filing     a false statement         in connection     with his receipt        of dis-

ability     compensation.      Our investigation          determined     that he concealed        the

fact that he was employed           while    collecting     disability     benefits.
The defendant      was placed     on five years        of probation      and ordered       to make    resti-

tution    in the amount      of $22,768.



-- A former TVA employee          pleaded     guilty    in Atlanta,     Georgia,     to an indict-

ment    charging    him with    filing   a false      statement     to obtain     disability    compen-

sation benefits.         Our investigation       determined        that the employee        failed    to

report    earnings     from employment      while     collecting     benefit    payments.      The de-

fendant    was sentenced       to five years     of probation        and ordered     to make    restitution

in the amount       of $35,033.



  -     FECA Forms     Revisio n Project



A joint Office        of the Inspector      General/Office         of Workers'     Compensation       Pro-

grams     (OIG/0WCP)    task force was established           to review     all forms used by claimants

to apply for and receive          benefits     under    the Federal     Employees'     Compensation

Act    (FECA),   because    complaints      from the field       had indicated      that many     forms

were    inadequate.      Specifically,       the forms were        criticized     because    they re-

quested     such general     information      that claims     filed    for work-related        injuries

could not be properly          processed,    were     so ambiguously      worded    that they per-
mitted    ineligible     claimants    to receive       benefits,     permitted     claimant_    who

had sufficiently        recovered    from their       injuries     to remain     on the compensation

rolls rather       than return    to work,     and permitted        claimants     to falsify    or

conceal'employment         information      in order    to fraudulently         continue    to receive
benefits.
                                                 30



As a result    of the efforts        of the joint OIG/OWCP              task force,       the following

task force recommendations           were    implemented        during    this reporting          period:



    I.   Two   forms were revised           and are being        sent    to all FECA beneficiaries

         by OWCP    District    Offices.



         a.    Form CA-I049     is issued        in duplicate       to claimants          when    they are

               first placed     on the benefit           rolls.     The    form advises          individuals

               of the amount     of money        they are to receive             and of their responsi-

               bility     to seek employment           when    sufficiently       recovered       to do so.

               The form also specifically               instructs       claimants     to report      any

               employment     or earnings        from any source          to the servicing          OWCP
               Office     immediately,       in order     to prevent       overpayment.           The CA-I049

               was revised     to include        basic    payment       computation       information

               and to have     the claimant           sign and return        a copy of the form,

               thereby     documenting      the claimant's         understanding          and acceptance

               of the conditions         under which          compensation       may be received.



         b.    Form CA-I032     is routinely           issued    once a year by OWCP             to all

               FECA benefit     recipients        who are on the automatic                payment    rolls.

               The form requests         that     the claimant          notify    OWCP    of any employment

               and pay/earnings        and any change           in address       or of the status

               of any dependent        claimed        that might    affect       the amount       of the
               benefits     received.       Revisions         to the CA-I032       include       a clarifi-

               cation    regarding     self employment,           a correction       to the penalty

               notice    and expansion       of the certification             statement.



   2.    A new form CA-838       (Notice        to Recipients       of Disability          Compensation),

         was devised      to remind      claimants,       on a more       frequent       basis    than that

         provided    by forms CA-I049           and CA-I032,       to seek employment             upon re-
         covery    and to report       any employment           or earnings.        This    form will

         be released      semi-annually         with    the third and ninth          periodic       dis-

         ability    compensation       roll check        that    is issued       each payroll       year.
                                                    31




The OIG will continue            to meet     at regular     intervals    with     0WCP    to discuss     any

problems      with    OWCP    forms being used to establish            claims     or receive     benefits.



 -     FECA    Investisative      Pro_ect



The Office       of Investigations         has been involved         in an ongoing        investigative

project       aimed at disclosing         federal    employees      receiving    benefits     from the

Office    of Workers'         Compensation     Programs     (OWCP) under       the Federal     Employees'

Compensation         Act (FECA),    while     simultaneously        receiving     other    undisclosed

earnings.



This    investigative         project    is a joint      effort    involving    the Postal      Inspection

Service,      U.S. Air Force Office           of Special      Investigations,       Naval    Investigative

Service,      OIG/Health       and Human     Services,     OIG/Department       of Transportation,

OIG/Veterans         Administration       and OIG/Department         of Agriculture.         As the lead

agency    for the project,         we have      developed       a profile   of a high-risk        claimant

which    meets    investigative         requirements      and which    is based     on the length        of

time    the claimant         is on the periodic        rolls,     age limits,     pay location,     type

of injury       and minimum      amount    of yearly     benefits     received.      A comparison        of

this profile         with records       available    to the OIG/DOL      has     thus far disclosed

a significant         number    of FECA    claimants     who have     reported     earnings     for unem-
ployment       insurance     purposes.



An analysis       of selected      OWCP/FECA       claimant     case records      will be conducted

by the participating            agencies     who will     thenbe     responsible     for the field
investigations         pertaining       to their    employees.       This review     will    also assist

OIG/DOL       and the participating          agencies     in identifying        any procedural     defi-
ciencies,       either   at D0L or within          the agencies'      injury     compensation     units.
                                                      32




Loss Analysis           and Prevention      Effort     Involvin$      ESA Programs


     -     District     Office    25 Review



At       the request      of ESA management,         the Office      of Loss Analysis        and Prevention

(OLAP)        initiated     a survey    of the Division          of Federal     Employees'     Compensation

(DFEC) bill          payment     operations    at District       Office     25 in Washington,        D.C.



The review        involved       evaluating     the systemic       weaknesses     which    recently     resulted
in a substantial            loss of funds       through     embezzlement      at the District        Office;

proposing        measures      to preclude     recurrence;       and performing         a preliminary

security        survey     to identify     other     potential     areas    of vulnerability        in the

bill      payment     operations      of the Office,        including      suggesting     possible    counter-

actions.         The scope of the study            covered    various      aspects   of the bill payment

system        including    bill processing,         bill    examination,      data   entry   preparation,

data entry and transmission,                automated       system    jobs and processes,         and payment
reconciliation           and audit control.



Results        of the analysis       revealed      a number    of significant        weaknesses      in data

security,        computer      security,    bill payment       processes      and bill payment        con-
trols.        A number     of the weaknesses          identified     involved:



         i.   Computer     and terminal       security      relating    to risk analysis,         access

              control,     physical     surveillance,        logging    procedures,       supervisory

              oversight,       rotation    of terminal       operators,      physical     and organiza-

              tional     location    of terminals,         and key issuance       and control.



         2.   Bill-payment       processing     and control       relating      to logging    of bills;

              document     control;     document     integrity;      payment-clerk        conformance       with

              accepted     condition,      medical     report,    markup,     pay authorization         and

              by-pass     utilization      review    requirements;         monitoring     of conformance

              with    requirements;       password     security;     provider/claimant        profiles;

              and availability         of data-entry        functions      to payment     clerks.
                                                     33


During    the conduct     of the analysis,          DFEC    management       proposed    revisions       to

bill payment       procedures.      In addition,          District    Office    25 management       ini-
tiated    a number    of control      enhancements.          OLAP believes        that the controls

which    have been     implemented,       as well    as those which          are pending       approval,

should    adequately     address    a number       of identified       vulnerabilities.



However,    based on a threat-risk           analysis       conducted     by OLAP,      a number    of

penetration       profiles   were developed,         relating    to methods        by which      system
controls    could    still be defeated.            The profiles       were    then analyzed,       oppor-

tunity-blocking       or event detection           countermeasures        designed,      and recommenda-

tions proposed       for DFEC evaluation.            These    recommendations         related     to the
need to:



    i°     conduct    a validity      determination         against     the Employer      Identification

           Number/Social       Security     Number    Master    Index     file;



    2.     verify    claimants'     Federal    status;



    3.     have    the capability      to effect      computerized        claimant      and provider

           utilization       surveillance;



    4.     maintain    a file of claimant           and provider        signatures;      and


    5.     supply    a service     utilization       statement       to claimants       and providers.



The report    also observed        that:


    I.     at the time of the review           there was no reason             to believe       that the

           recent    loss event was indicative              of more pervasive         fraud and abuse

           activity    in District        Office    25 operations;



    2.     there appeared        to be a significant          lack of loss prevention             awareness

           among District        Office    operating       personnel;
                                                   34



      3.    there was     substantial     need    for security      orientation     and training;



      4.    the management       of the District        Office    appears     to be resolved     to deal

            with    asset protection      issues    and take appropriate          corrective     action;
            and



      5.    the overall     loss prevention        posture      of District    Office   operations

            should    continue    to improve      significantly.



  -    Black      Lung Program   Review


The Office        of Loss Analysis     and Prevention        has recently       undertaken     a review

of the Black Lung medical            and benefit     payment      activities     to determine     the

potential      for loss through       fraud   and abuse      in the following       major    program
areas:



      I.    payment    of diagnostic      bills,

      2.   payment     of treatment     bills,

      3.    computation     of benefit     payments,      and

      4.   payment     of lump sum and regular          monthly     benefits.



A number     of problem    areas and system vulnerabilities                 have been   identified

and corrective        measures   have been       designed.       The report    containing      the findings

and recommendations         is currently      in draft     form,    and will    be forwarded      to

management     upon    completion.      The results       of this study will        be discussed

in detail      in the next    Semiannual      Report.
                                                    35


C.   THE MINE      SAFETY AND HEALTH         ADMINISTRATION



The Federal     Mine Safety          and Health    Amendments     Act, which      was signed       into

law in 1977, brought           all mines     in the U.S.--more         than 20,000       underground       and

surface,     coal and non-coal          facilities--under        a single      safety    and health       pro-
gram.     It is the first single           safety     and health measure         to cover       all of the

nation's     500,000    miners.        On March    9, 1978,      responsibility         for administering
and enforcing        mine    safety    and health     was transferred        from the U.S. Department

of Interior     to the UoS. Department             of Labor.      The Act created         a new Mine

Safety    and Health        Administration        (MSHA) headed      by an Assistant       Secretary
of Labor.



Approximately        2,000 MSHA       inspectors     are required      to make    four inspections

of each underground           mine    and two inspections        of each     surface     mine annually       to

determine     mine    operator       compliance    with    Federal    health   and safety regula-

tions.      Should    an inspector       find a condition        or practice      that poses       an im-

mediate     threat    to miners,       the affected       area of the mine       is to be ordered
closed    until the condition           is corrected.        There    are various       civil    and crimi-

nal penalties        for violations.



OIG's    Special     MSHA Task Force


In November,       1979, a comprehensive           review    of select      program     areas within

MSHA was undertaken.            The project       incorporates       both   investigative        and audit

expertise.      The overall          purposes   of the project        are to develop       guidelines

for (i) reviewing           the established       procedure§     for administering         and enforcing

the Mine     Safety    and Health       Act and (2) conducting          proactive       investigations

into the Coal Mine           Safety    and Health     and Metal/Nonmetal         Mine Safety       and
Health    Divisions     of MSHA.
                                                      36



Of primary        concern    to the OIG are problems             which    impact adversely        upon    the

health    and safety        of miners.       The significance          of the health      and safety prob-

lem is underscored           in a report      of the President's           Commission     on Coal,       entitled

"Recommendations          and Summary       Findings,"        released     March   3, 1980.       The report

comments     that, in 1979, there were 144 fatalities                      and more     than    18,000 dis-

abling    injuries     resulting      from the mining           of more    than 750 million        tons of

coal.     Continuation        of current      accident      rates    in surface       and underground

mining    would     result    in an expected         200 fatalities        and more     than 25,000       dis-
abling    injuries     in 1985, when production                is estimated     to be above       one billion
                     i/
t_ns per year.--



To improve     safety       and reduce      the number      of fatalities       and disabling       injuries,

the Commission        recommended      that the Mine          Safety     and Health     Administration

(MSHA)    increase     its inspections         and enforcement           activities     in those mines

identified     by the Commission            as having      accident      and fatality     rates    consistently

and substantially           above   the National       averages.



The OIG Task Force           is giving major         emphasis     to MSHA's     inspection       function

including     the identification            of patterns       of criminal      activity    or mismanagement.

The health     and safety       of miners      are impacted         by the quality       of MSHA accident

investigations        and the activities            performed     by the Office       of Technical       Support

(OTS).      Programs      administered       by OTS include         ground    control,    roof control,

dust    control     and other surveys,         and laboratory          analysis    of air mixtures,

including     CH4 or methane         gas,    (which    is the leading         cause   of mine     explosions).

OTS    is also responsible          for the testing,          approval,      and post audit       of mine

safety    products.         The procedures         employed    by MSHA     in the approval        and certification




1/
--     President's     Commission      on Coal:        Report     on Recommendations           and Summary

Findings,     March    3, 1980, page         12.
                                                         37



of mine     safety    products       and the effectiveness          of MSHA's       Quality   Assurance
Programs     are currently          being    examined    by the Task Force.           A review     of in-

spections     and special       investigations          in selected       offices    within    the Coal,

Metal    and Nonmetal        MSHA    districts    will    also be accomplished.



In all of these areas,              the Task Force       will vigorously        investigate,       and where

warranted,     refer cases          to the Department         of Justice     for prosecution.         To

support     the OIG/MSHA       Task Force Project,            assistance     has been    requested     from

the Department        of Justice,       through    various      U.S. Attorneys'        Offices.      Refer-

rals    for administrative           action    and program       reforms    will    also be made     to the

Assistant      Secretary       for MSHA.



Additional     areas of concern             to the OIG are potential          abuses    and mismanagement       by

MSHA within     the assessment          and procurement          areas.     In-depth    audits     and investi-

gations     of the assessment          process    and procedures          for awarding    and monitoring

contracts     will be initiated             by the MSHA Task Force          within    the first     two quarters
of FY 1981.



In December     1979, the Task Force began                a review      of MSHA     procurement     practices

for FY 1978 to determine              whether    selected       items   purchased     from a single MSHA

supplier,     in this case a manufacturer                of mine    safety products,          could have

been purchased        at a lower cost          from alternate       suppliers.        As a result     of this

analysis,     the task force believes              that substantial         savings    may have been

possible.      This matter          will be discussed         in the immediate        future with MSHA

management.



  -     Investigative        Effort    Involvin_    MS HA


Among    the highlights        of OIG's       investigative       activity    relating    to MSHA was

the indictment       on June        13, 1980, on bribery          charges,    of a Federal        Coal Mine

Inspector     assigned       to the Monroeville          MSHA    Sub-district       Office.     The Inspector

was responsible        for inspecting          surface    mines    within    the Westmoreland        County,

Pennsylvania,        area.
                                             38




This   indictment   resulted   from a joint       investigative   effort    by the Federal

Bureau   of Investigation,     OIG Special    Agents    from the Philadelphia      Region,

and a Grand Jury     Investigation   directed       by the U.S. Attorney's      Office    in Pitts-

burgh,   Pennsylvania.     The Inspector     resigned    his position      with MSHA,    and was

subsequently   convicted     of bribery    in a Federal    District   Court.
                                                    39



D.   THE OCCUPATIONAL          SAFETY AND HEALTH ADMINISTRATION



The Occupational        Safety    and Health       Administration          (OSHA)    is responsible          for

administering        and enforcing       the Occupational          Safety    and Health Act of 1970.

This Act requires         employers      to provide       their    employees       with    safe and health-

ful working     conditions,       and directs       the Secretary          of Labor       to set and enforce
occupational        safety    and health       standards    for five million          business       establish-

ments    employing     more    than 63 million       workers.        The Act also authorizes                the

individual     states     to set and enforce         their     own occupational            safety    and health

standards     under    state plans       approved    by the Secretary.              Fifty    percent      matching

grants    are provided        to assist    states    in administering          approved       state job

safety    and health     programs.        The law gives        the Department         of Labor          the right

to make     inspections       without    notice    at any reasonable          time,       either    acting

on its own or at the request              of employees        or authorized         representatives.

If an inspector        finds an alleged          violation,       DOL will    issue       a citation       and

a date    for correcting        the violation,       which    will become          final    unless      contested.

There are various         civil and criminal         penalties       for violations.



OIG Audit     Effort    Involving       OSHA


During    the reporting        period,    five audit       reports    were    issued       on OSHA grants,

which    took exception        to over    $39,000.        The major       reasons    for the exceptions
are shown below.


                                                                    Amount    of      No. of Reports
               Audit    Exception                                   Exceptions        with Exceptions

Excessive     Program    Expenditures          Reported               $     7,561                   i

Unallowable     Costs                                                         824                   2

Travel    Advance     Incorrectly       Charged                               978                   i

Salary    Improperly     Charged                                           30,052                   I
                        TOTAL                                         $ 39,415
                                                   40




In addition     to the dollar        exceptions     above,    two reports        indicated     that--for

periods     up to two years--the        state     agency    responsible        for the OSHA program

held    over $63,000    in Federal      cash in excess        of the needs        of the state        pro-

grams.      These excess     cash balances        resulted    in computed        interest     loss on
potential     investments     of about    $11,300.



Investisative     Effort     Involving    OSHA


Within    the OIG Office      of Investigations,           the Director        of MSHA/OSHA     investi-

gations     assumed   official   duties    on July        28, 1980.      Since    that time, proce-

dures have been       established      to review        preliminary     investigative       reports     and

other    data concerning      OSHA    to determine        if there     are patterns       of fraud,     abuse

or integrity     related     offenses    which    would     warrant     initiation       of a National

project     similar   to that underway      in MSHA.         Potential        projects    currently     under

consideration     by the OIG include        a review        of the assessment,           compliance     and

inspection     procedures.       Consultation        with OSHA        staff    involved    in compliance

and enforcement       will be an ongoing         process.
                                                         41



E.       DEPARTMENTAL     MANAGEMENT



Departmental      Management         includes    those     agencies     or areas     of the Department

that provide         policy     direction     or technical       and administrative         assistance

to the programs          administered        by the Department.          It includes       a number     of

major      organizations        such as Office       of the Secretary,          Office    of the Solicitor,

the International          Labor Affairs        Bureau,       the Office      of the Assistant       Secretary

for Administration             and Management,       the Women's       Bureau    and a number       of adjudi-

cation      and other organizations.             This section         also    includes    activities     that

affect      or involve     several       DOL agencies      and are,     therefore,       most    appropriately
discussed      here.



During      this reporting        period,     OIG was     involved     in one such review          dealing

with potential          vulnerabilities        in the administration            of the employee        flexi-

time system.



Loss Prevention          Effort    Involving     Departmental         Management



     -   Flexitime      Recordkeeping        Procedures       Study


The Department          has recently        initiated     experiments        in the use of flexitime

(flexible      work     schedules)       for a portion        of its employees.          Additionally,
a recently      negotiated        contract     between     DOL management        and the employee        union

representing      National        Office     staff   has committed       the Department          to greatly

expanding      employee        participation     in a flexitime         program.     Therefore,        in view

of its potentially             widespread     implementation,         and in response       to a request

from top management             in the Department,         OLAP conducted        a review       of flexitime

to suggest      appropriate        methods     of timekeeping         that would     satisfy      management
information      needs.



In its report,          OLAP    recommended     establishment         of a daily     log in each unit

where employees          would    sign in, and record           in chronological         order,    the time

of their arrival          and departure.         Additionally,         OLAP recommended          that employees

maintain      a personal        weekly    or bi-weekly        time sheet which      would       serve as the
                                           42




basis    for timekeeper   action   upon   certification     by the supervisor.    Implementa-

tion of these two recommendations         would   maintain    supervisory   accountability

as well    as provide   a basis    for adequate   payroll    auditing   and related   moni-
toring    activities.
                                                        43




CHAPTER     II     ORGANIZED      CRIME AND RACKETEERING



The primary        emphasis      of the Office        of Organized       Crime    and Racketeering          (OOCR)
is to concentrate          its resources        on the areas where           the greatest       potential

exists    to have an impact          on syndicate-infiltrated               labor unions.          Each    of

the 14 OOCR Field Offices             has     finalized       an updated     mission     statement        and

implemented        strategies      designed     to affect       the existence        of organized         crime
control    or influence          of labor unions.            Through    this planned      method     of investi-

gation,     limited     resources     are being        allocated       through     the rational      selection

of investigative          projects.       Also,      the investigative        team concept         is being

initiated        and is enabling      OOCR     to engage       in major,     complex     investigations.


                        SUMMARY    OF INVESTIGATIVE           AND PROSECUTIVE        MATTERS
                                  April   i, 1980 - September             30, 1980

     Cases       Open                           59

     Referred       to DOJ                      32

         Accepted       for Prosecution                 24

         Declined                                       Ii


         Pending                                        12

     Number       of Indictments                9

         Individuals       Indicted                     12

     Number       of Convictions               21



Some of the more          significant       cases     are briefly        described     below, i/



 -- U.S.A.        vs. John Gibson,        Herbert      Schiffman        and James    Stamos



A U.S. District          Judge    in Cincinnati,        Ohio,    sentenced        the General      Secretary-

Treasurer        of the Hotel      and Restaurant        Employees'        and Bartenders'         International



l/
-- When OIG was established               in October         1978,     a number    of cases were      forwarded

to OIG     from LMSA.         Following     additional        investigation        from OIG,    some of these
cases     resulted      in indictments        and convictions.
                                                   44


Union     to four months     imprisonment        following     conviction        on two counts of embezzle-

ment    of union funds and one count            of conspiracy         to embezzle.         Other    defendants

are awaiting     trial.      The investigation           was conducted        by OIG and the FBI.


-- U.S.A.     vs. George     Wuagneux



The defendant     was sentenced        to I0 years        incarceration,         fined    $20,000" and

ordered     to make    restitution     of $191,654        to a Laborers'         International       Union

Pension     Fund by a U.S.     District     Judge       in Miami,     Florida.       The jury found

the defendant,        a major building      developer,        guilty    of embezzling        from the

Laborers'     Pension    Fund, bank     fraud, mail         fraud,    income     tax violations       and

of violating     the Racketeer        Influenced        and Corrupt     Organizations        (RICO)

Statute.      The investigation        was conducted        by OIG,     FBI and IRS.



-- U.S.A.     vs. Eugene     Boffa,    Francis    Sheeran,      et al.



An investigation        conducted     by OIG resulted         in an indictment           of the principal

figure     in a nationwide     labor    leasing     corporation,        the President        of Teamster

Local    326, Wilmington,      Delaware,     and three        other    individuals.         The indictment,

in part, charges        that the defendants         participated        in an enterprise           consisting

of a group     of individuals       associated      in the vehicle           leasing     business    for

the purpose     of making    money     and obtaining        other     financial      benefits.       The

indictment     also charges     that those       individuals         committed    mail     fraud    and

violated     the Taft-Hartley       Act (prohibited         employer     payment       to or receipt

by a union official)         to assure     the continuing        operation       of the enterprise

to the detriment        of the leasing      corporation's        employees       who were represented

by various     Teamster    Local Unions.         The defendants         are also charged           with

violating     the Racketeer     Influenced       and Corrupt         Organizations        (RICO) Statute.



-- U.S.A.    vs. Raymond     J. Silva



A U.S.    District    Judge in Providence,          Rhode    Island,     sentenced        the President

of an International        Longshoremen's        Association         Local   Union     to one year        im-

prisonment     and six months       probation     after     finding     him guilty        of violating

the Taft-Hartley        Act and embezzling        union     funds.      The investigation           was

conducted    by OIG.
                                                   45



-- U.S.A.     vs. William       Feeney    and Hugo Germer



The defendants        were    sentenced    to seven years          and six years       of imprisonment

respectively,     by a U.S. District          Judge       in Newark,       New Jersey,       following

a return     of guilty       verdicts    by the jury.        Feeney,       the New Jersey       Laborers

Union     official,    was convicted       of receiving          a ten percent       kickback     in return

for using his influence           in securing       a mortgage          loan of $425,000        from the

union-affiliated        pension    and welfare          funds.     The other       defendant,    Germer,

a New Jersey     realtor,       aided and abetted          in committing          the illegal     act.

The investigation        was conducted       by OIG.        The Department          of Labor    had pre-

viously     brought    a civil    suit to protect          the pension       fund's    assets.


-- U.S.A.     vs. David Friedland          and Jacob       Friedland



A U.S. District        Judge    in Newark,    New Jersey,          sentenced       David    Friedland        to

seven years and Jacob Friedland              to two years          imprisonment       and fined       each

$35,000     following    a guilty       verdict    returned       by a jury against          the two New

Jersey    attorneys.         One of the defendants          was a current          public    official        and

the other was a former public              official.        The defendants          were    convicted        of

obstruction     of justice       and income       tax violations.           Both have been        attorneys

for a number     of Teamster       union    locals       in New Jersey.           The conviction       was

a result     of a joint OIG/FBI          investigation.           The Department       of Labor       had
previously     brought       a civil suit    to recover          plan    losses    and for other relief.



-- U.S.A.     vs. John Crowley



Following     a joint OIG/IRS       investigation,          the former business             manager     of

a New Jersey     Boilermakers       Local Union          was sentenced       to six months        of imprison-

ment    and fined $5,000        after pleading          guilty    to a one count       felony     informa-

tion charging     him with       falsely    subscribing          to his 1977 Federal          income     tax

return.     Additionally,        a judgment       was entered       against       him under     the civil

provisions     of the RICO       Statute    which       permanently      enjoins     the defendant           from

holding     any union office,       influencing          in any manner       the activities        of a

labor organization           or employee    benefit       plan and also       from representing              any

employee     in any dealings       with    the New Jersey          Boilermaker's       local union.
                                                    46




  In the civil RICO       complaint,    the defendant      admitted    receiving    in excess

• of $250,000       from three employers       in violation      of the Taft-Hartley       Act (acceptance

  of prohibited      payment).


  -- U.S.A.    vs. Charles      Stanfield



 An OIG investigation          of an officer      of a New Orleans     local    of the United

  Food   and Commercial     Workers    Union   resulted    in a guilty    plea to one count

  of violating      the RICO Statute.       Additionally      he had been      charged    with vio-

  lating    the Taft-Hartley      Act for soliciting       $128,000    from employees.        A 30

 month     prison   sentence   was   suspended.      Stanfield    was fined     $7,500,    placed

  on probation      for five years,     and for a period       of one year      is required    to
  devote    one day per week      to meaningful      public   service.
                                                 47




CHAPTER    III.     OIG INTERNAL     AFFAIRS,        EMPLOYEE     INTEGRITY     INVESTIGATIONS        AND
                    THE HOTLINE     PROGRAM



OIG Internal       Affairs



As noted    in the last Semiannual            Report,     the establishment         of a permanent

OIG internal       affairs     capability     will    help    to insure     that this Office      is

itself    a model    of integrity.         The planned       activities      of such a capability

include    the conduct       of investigations         of alleged     or suspected       misconduct

by OIG employees       and a program        of regular        inspections     of OIG offices.



Unfortunately,       largely     because    of the hiring         freeze,    no permanent      staff

was assigned       to this activity        during     the reporting       period.     By utilizing

other employees       on detail     to this function,            we have been     able to undertake

several    internal    affairs     investigations         which    have    resulted   in a number

of administrative       actions,     including        removal.      Additionally,        our review

of this office's       audit contracting         procedures        is nearly     completed.      An

interim    report    has been developed         which     identifies       administrative      deficiencies
and makes    various    recommendations.             Preliminary     changes     instituted     by the

DOL Office      of Procurement      based on these           recommendations      indicate     that they

will   result     in significant     savings     in the OIG audit           contracting      program.
Implementation       of the recommendations             should    also improve      the technical

criteria    used    in selecting     audit     contractors.         Until     additional     resources

become available, the OIG will be unable to undertake an_active inspections
program and priority internal affairs investigations will continue to be

handled    on a detail-assignment           basis.



Employee    Integrity        Investigations


During    the period    April     i, 1980 to September            30, 1980, 22 investigations

involving    employee        integrity-related        violations     were opened.          Five of these

investigations       were     referred   to the appropriate          DOL agency       for administra-

tive action       after the investigations            were    completed.       Fifteen     investigations
                                              48




were closed     during    the period.        The investigations           resulted   in recovery

of $22,897.      Eight    cases remain       under    active     investigation.



 A particularly        significant      employee     integrity     case was a prosecution            related

to the theft of $53,005           of DOL program       funds which       has resulted       in a three

count     felony conviction.       To date,       $22,300     of the funds have       been recovered

and the subject       was given      an 18 month      suspended     sentence,      three    years    proba-

tion and ordered        to pay $i,000      in restitution.          As discussed      earlier       in

this report,     OIG's Office        of Loss Analysis         and Prevention       conducted    an

analysis     of the loss and proposed          measures       to preclude     recurrence.       Other

potentially     vulnerable      areas were     also identified          and countermeasures          were

suggested.



Hotline    Program


During    the period April        1 - September       30, 1980,     the Department         of Labor
OIG Hotline     complaint      system    received     a total     of 72 complaints.          Six of

these complaints       were    from DOL sources,        34 were     from outside      the Department

and 32 were     anonymous.       Of the total        complaints     received,      40 were by tele-

phone    and 32 were     through   the mail.         OIG forwarded       45 of the complaints

to DOL program       agencies    for administrative           action,    referred    one complaint

to an agency     outside      the DOL, retained        23 for OIG action          and determined

that    the remaining     three complaints         should be closed without           investigation.



During    the same reporting       period,     the General       Accounting       Office    (GAO) re-
ferred    56 hotline     summaries      to OIG.      These    summaries    were    screened    to de-

termine    whether    they involved       criminal     matters    requiring       OIG attention,

or whether     they should be referred            to the respective        DOL program       agencies

for appropriate       administrative       action.      Of the total number          of summaries

referred    by the GAO,       37 pertained     to ETA,       17 pertained     to ESA and two in-

volved    employee    integrity    matters.        Of the 56 hotline         summaries     received,

34 were    referred    to program       agencies     and 22 were     retained      for OIG action.
                                                 49



Outreach    Program


The previous    Semiannual     Report     discussed      OIG's    plans    to implement     an Outreach

Program    that would encourage        DOL employees         to provide     information     to OIG

about program     weaknesses    that could       allow    fraud, waste       or abuse     to occur.

This program    recognizes     that employees         have    extensive     knowledge     of DOL

programs    and often are in an excellent              position    to identify    operations,

systems    or procedures    which   facilitate         fraud, waste       and abuse   activity.

Once   OIG is alerted,      the Office     of Loss Analysis         and Prevention        can take

steps to devise       alternative   procedures         or measures     that can minimize       the

vulnerabilities       and prevent   such losses         from occurring.        DOL employees

identifying    systemic    weaknesses     will    also be encouraged          to assist OLAP       in

devising    appropriate     safeguards.



The current    hiring     freeze has limited          implementation       of the Outreach     Program

during    this reporting     period,    but implementation          plans    are now being     developed

and a status    report will be included           in the next Semiannual          Report.
APPENDICES
SO
             .51

P'_ 00D                       .,1-




   I"-(_I   u'_    ',0    I
                   ,--4




                                        I

                                     ,--4
                                                      52

                              SUMMARY  OF AUDIT            REPORTS   ISSUED
                           DURING   THE CURRENT            REPORTING   PERIOD

During   the current semiannual                      reporting      period April l, 1980     to
September   30, 1980, we issued                      211 audit      reports as follows:

Department       of    labor


        Employment              and    Training      Administration

          CETA        Sponsors:

             State and Local Prime Sponsors                                                   65
             Native American  Grantees                                                         3
             Migrant and Seasonal   Grantees                                                  lO

          Other        National           Programs                                            59

          Office           of    Policy     Evaluation        and   Research    Grantees      20

          Job     Corps          Centers                                                      18

          State        Employment           Security       Agencies                               6

        Occupational              Safety     and     Health    Administration

          OSHA        Sponsors                                                                    5

        Bureau        of    Labor       Statistics

          BLS     Contracts                                                                       3

        Office        of    Cost       Determination

          Indirect              Cost    Reviews                                               lO

        Employment              Standards     Administration

          Internal              Audit                                                             1

        Assistant           Secretary        for     Administration      and    Management

          Internal              Audit                                                             2

Other   Federal        Agencies

  Health and Human Services                                                                    7
  Housing   and Urban Development                                                              l
  Transportation                                                                               1

    Total    Reports             Issued                                                      211
                                                                                                                   54


                                                                                                                                           n_                                                       _-
                                                                                                                                           bJ
                                                                                                                                           I--                                                 H
                                                                                                                                           Z                                                 .l--
                                                                                                                                           bJ                                               _-OZ

                                                                                          pc                                       W tr)             _       W              • (-_Z          ¢J Z
                       -_                                                                 W Z=)
                                                                                          _ C_ _"                                  I-- 0d
                                                                                                                                   Z   0_            0 I--
                                                                                                                                                     (J_:                 (J HZ
                                                                                                                                                                          W  ZH             b._ O
                                                                                                                                                                                                0
                                                                                                                                           C_
                                                          n_ 0                            Z H _                                                      0                      • _I_     n W
                                                             03                           ,::::_c:£ C3 rr"                         born                      b_           0... n" I-- n" _
                                                           • I                                     I.-- :Z _                       n--" r-)          _                    W           ,_ (:D 0._
                                                          _:_--                           LL            CD CD                      O                 c_ W                       _d       m Z
                                                          oz                                                       z       0:              d         mz                   o
                       4._                >->- O
                                          I--I--                 O (_
                                                                 CJ Z                     W 0_• (D
                                                                                          O     Z Z<:IZ                    C)
                                                                                                                           rn      mr')
                                                                                                                                   (_                   _
                                                                                                                                                     >-_J         >-             n _- Z
                                                                                                                                                                               • _W   I-- c_
                             _>-_J                                       .z               LWZ>-                            .W              O"        zmzo_                            wood
                             W Z O (._] _ _E C_f          o                                        _:E J J                 L_      (....0Z])         o _-40 t-h                 (_z
                                _          w wo        c_                                          _'O     J               C3      Cb o              OI3_ (._)                  o,_::       c'h _-;-
                       O     b_ CD Z Z              _S_Z _                                         Z    I c_                       _-_>-                0-       W                  r_      Z
                             O C_ OCD _:: <:_          Z j                                         mE r..._9
                                                                                                           >               --      rd                W H _[ W                   ZO          c_-r
                       q--         I-- I-- _--,i_--_I, _ _D                                        -r Z                    I--     Z >-              00 tJ') I-- U')            C9 I        J C9
                        O    >- W (__(_0Z ZCD          _=cq                                        WH      T               0-      _ W               _ tq _tq                   tq_-        P_ Z
                             Z       I--_-_N              (_g(_g),-3£ H                            _O              _       £3      O       I--       O       U3 CD Z            0C'm m

                             O O          ,_::Ec:_ >             >        (._ J           rl       U3 J            J       O       nq _:             rn _         o0 k          Ii_         O C0

    O
    I.-4
    I:z;
or-.q
_P4

CQr_                         0_ u'h ,.._-<t o4 c,,I k0 -._ r.-- r'-- ',O r--.
0] Z                         o O l'q b'h -1 -.1" C_I ,--_ _h ('q ,--4 ,--I
H    H                       O       1_   O       O       O      O        O       O       O        O       O       O               N       i'q       u_,--..-I    N       "kO -,,._'O       O_      r.q
     I_                       I   I   I  I  I
                             u-_kO,-4('q   kO r--I OqO,-_
                                                    I  I  I  I
                                                            OxkOI  I
                                                                  kO                                                       _       O
                                                                                                                                   m'h O
                                                                                                                                       m'h           o-,.1" -,.1"
                                                                                                                                                            O C',lo Ll'h
                                                                                                                                                                    o COU'_
                                                                                                                                                                         C9C9 o"-_ O
                                                                                                                                                                                   o
o] _                   _     <_ o C)(D uh u_          C9.-_ (WO   uh                                                       C9      OO                (DC90          O OC900
-_   O                 _     _--I _.--I O         (_      ,--I   ,---I Oq         C'q u'h          C_I C'.,I O             O           I         ,       I    ,       I    I     I      I       ,     I
                             /            ///
                       E     (..3 (..._ .._1 .._._1(.._          (_._ (...0 (_.._ _._              (...._ (._3 (..0        _J          I         I     I        I   I    I        I   I       I       I
O    [--q              g        I    I    I    I      I            I     I    I     I                 I     I     I         I      _       _         k0      ,-'-I CO r'--      _'-co       kO      i_h
_ _"_            ,4m Z       r-- mh ..-I-'.o (',4 I_ (_ (N o-, oo c_ .._                                                   (30     u'h (_            (NI (7, _ (N (',lc_ _ m'h
[_                .,_        oo ,,.7"
                                    <_ oo u% b'3F--<_r-- ("4',,00                                                          ko      o,_r--            r- (-q_h ko _- _--I'--k0
     Z           =_ _            I    I       I       I     I        I        I       I        I       I       I       I       I       I       I         I    I       I    I     I      I       I     I
                             o,o,o,oo, ooooooo
                                        I I I I I                                                              I       I           0,o
                                                                                                                                    I I              o0-,o0-,oooo
                                                                                                                                                      I I I I I I I                                   I
C_ _                   u_    C90          C]C)            C_ C) C9OC9C9C90                                                 O       (DO               OC)          OC)           O(D         O(D
_o


            4J   0_
rq L,.,
     3       (1) O')0        (:30000         0000              000                                                         O       O(:D              0000           00   0(:3
    Z       u') o            oo ooo0ooco     co co co co oo o0 o0                                                          co      ooo0              ooo0ooo0       o0o0 o0o0
_.-qH        0..)I__         00000_   O'_ 0_ 0",, ,--I C'4 u'h -,_"00 CD                                                   ",0     i"-O4             C) CO u'h ',.0 oo _ o0 C9

     12_    1::31"--         .._- u_ kO kO kO kOi_                                I_ O0 0",0_, O_                          '.13    O00_              <t" <1" kO kO kOkO 0_0_




                             W       W W          W       W l,IW W                        W        W W             W               EL 0_             LO W         W W           WW          W       W
                             _       _:__                 _- _:__- _                      _        _r_             _       c_         O              _E_E         _- _          _           _       _-
                             n" F_"0f n_ Of _ 0f n" Of Of 0f 0d                                                            W       (DO               n_ Of r_"0E n'0£ CE r_
                             0_ (I.0_0_ 0_ 0_ 0_ 0_ 0_ 0_ 0_ 0_                                                            {]3     O r-)             0_0_0_0_    0_ 0_ 0_0-
                                                         55




                             ZO           ZZZ                                                        _
                             Z            000                                                        ww
                                          _                                                _    _    w w


                  0          Oo                                             o          _             _




                        _Z_               _         _             _   -Z_         ZO_
                  0    OOI            I   NHH       0             WNON_           OI       _0   W    33



     0                  _                           WW                    ZO_O_            _    Z    _
     H
                  E


_0

HH                     __

_0                _    0ooo
                        IIII

_                 D     _h_h                  III       IIIIIIIIIII                              I


              D _       I I       I   I   HHH       _O0000000H_                                 0    _
_ _           _ o      0000               000       00000o000oo                                 0    O0
H_              _       IIII               III       IIIIIIIIIII                                 I    II


_o

om


_         ©   _        oooo               ooo       ooooooooooo                                 o    oo
H    Z   _    0        __                 _         ____                                        _    _




                  _   " WWW_                        WWWWWWWW_WW                                      _
                                                                    56




                                                   JW                                                           _            u9
                                                                                                                D            ,,,z
                                                   C0                                                _0         H            (.9>
                                                                                                     W          }--          NO
                                                                         U3U3                        (..3       Of           _
                                                   EL                    £9C3                        Of         C3           Of

                                             LIJ                         o::rY                       u)         (D
                   (_D                       P-b_                        _G_                         I,I      O              _1
                                             p-                                                           _>-         _-     H(D
                   ;..4         _-"          U]W                         O2cY                        Z_b-                    (_.)tO
                   O           :::)             (_)      rY I:Z::        (DO                         c_:: H Z                C) U')
                               H             b_ _           C)           I._H       rr" r'_ rr"      _:: I--:D        CD_
                          0_c_                     t.L   <:_ c_          J._l       m m              -r" O_           W      b_
                   Z      _    U3 Z          _)                          _)C3       _] J         J   L     Zi--       L_          W
                          W    Z      OU3    Z     t     i, I_           X      X                    £D Oi--          O_--       .Of




     O                                "1-o0                              Ww                          c_   _                 OoE
     H
                          I--_."I--I.,-
                                      __::::D            :_::_           Z Z        _::_: _:         Z Z_             I--I--G)Z
ICl P-..]          Z.     {_)b_       ,tOO   OJ          _   _           _£)U3      _--I _---IH      _     JO         (_30   _"O
_p..,
(.o[.9
o3_
H a




     5.4      ._                                         O O             OO         OOO              O OO       OO    OO
               _.         _O__                            I I               I I       I I I            I I I     I I I I
     Z          D ,..-,   ....-I-00 ,--I k.0 I"'_ _.F_   L..OC9          (3(-)      (...3¢..3(..._   --1(.:3(_0 __l_J Q9 (-9
_    _         (   O      4_a_O                           I I              I I        I I I            I I I     I I I I
H    I:_           _        I I       I I      I I       C:) 0           {::DO      0 0 {:D          C:) 0 0 O0       0 0
    _              _      OO    OO      OO                 I I            I I         I I     I        I I I      I I I I
L:) I:::)                 O0 00 I::0 CO G:) O0           l'_-r TM        P_P--      I'_- P'- P"-     I'_ P_ I_" r_-r_- I"_l_-
<o



[,/3 [.9    © CD [.)      oO          oO     O O         O O             O o        O O O            o     oO         OO     OO




                          WWWWW                                          EL m                        WWW              WWWW

                          0EOE O_OE          0_ W        -J J            OO         (/)(.flU')       r_ r_            _n_    _n       _




                   r


                          N    H      NN     N     H     N   N           H      H   N    N       H   H     N    H     HN     H    H
                                                         H   H           H      H   H    H       H   N     HN         HN     H    N
                                                          57




                                                      w
                                                      Z
                                                      w


                       ww           _                 _




                   o   Oo           _       WW                 _              0            _         0
                       O0                   00_                _                           _         m




                       WW                   _                  _              Z            _
                       _            _       _                  _Z_                         _Z


                       _            _       XX_                           _            W   _

     0                 H_           I       ZZ                 _              _            _
                       _            _       WW_                _ZZ_Z_                          I _




HH


_O                 _   OO           O           III             IIIIIII                        II        I


             _Z:       _            m        III                IIIIIII                     II           I
             •M          I      I     I     OOu                JO_                OO       OM
_            _         _            _        III                IIIIIII                     II           I

H_                 _       II           l       III             lllllll                        II        I




_    _   ©   _0        OO           O       OOO                OOOOOOO                     OO        O




                       _                    _                  WWW        WWWW             W_
                       _            _       _                  HMHMM_H                     MM




                   c


                       _H           H       XXX                XXX        XXXX
                       >>           >       MM_                H_HM_H                      XX        X
                                                                     58


                           Z                           z
                           o                           H
                                                       W                                            Z



                        •oEE                                                                        >
                    Z             _0                        0                                       Z



                           W_                          ZZ                                   _

                    _WWW                               J    4        Z        I             _




                                                                         W_            _W_



                    _WWH_O_                                      _            H        _            I
                o
                    __WW_W_                                          W_W               W_       _       6
                _   _IZZZZOZ_Z_ZWZ_ZW_




HH




_                       IIIIIIIIIIIIIIIIIIII
0    _              V      _______
                            Illlllllillllllllll



     Z     3_           IIIIIIIIIIIIIIIIIIII



mo



_    _   _ _        OOOOOOOOOOOOOOOOOOOO
H    Z   _ O        _______
_    H   _&         _        _       _ __                                         __            _   _   _

O_         E_




                    _W_WWWWWWWWWWWWWWW
                    OOOOOOOOOOOOOOOOOOOO




                o
                    XXX                  XX       XX        XX   XXXX             XXXXXX                X
                                                                                                             59
                                                                                                                                            •                   Z

                                                                                 _               _                              Z       H


                                                                                 Z               _                              _       W_




                      _H                       _0__                                                          _X_                        _                                         ZW_W_




_H




                          II1"11111111                                                                           III                        III                              IIIIII
_    _           --       I l     I I I                              I       I       I       l       I   I       I I                I       I I             I _              I I           I       I   I       I


     Z        _ _      I I I I I                                     I    I I I I I                              I     I I               I I I J     I                             I    I I I I
     _       _ O      OO   O'OOO                                         OO   O O_                           _        _O                OO   _   I _                                   O OO   O
H    _          _      I I  I I I                                    I    I I I I I                              l     I I               I I I O     I                             I    I I I I




_    _   © _          O_OOOOOOOOO                                                                            OOO                        OOOOOOOOOO




         _   _        _               _                 _       _        _       _       _       _           _        _         _       _       _       _        _          _,_        _       _           _




                 .o
                      I---II-,-II----IHI---II---It----I_--It---IHH                                           I---It---I1--'-t           I--IHI---IHI--tI'--II--II'--IW-IH
                      XXXXXXXXXXX                                                                            XXX                        XXXXXXXXXX
                                                                                   6O



                                      z
                                                                0             ZZ                  z                                _G             I
                                                                              _                   H              _                 _°_
                      J
                                      N_                             _        WW                  W_             !I                0
                                                        W       Z             _                   _              _                      W




                 0    _                                 W       _                       _            _                ,_      _WO_W_
                      0               L       Z         0       _ZZ_W                             _oJ_                        _o             z        o

                      woo j oz.
                      O--    j--                        _.   zzojzow
                                                               _  O FP wO                         kO        W    _     W      wow
                                                                                                                              W _            _O       w
                                                                                                                                                      W


                      j       _               _               -w     _   w    _    J    _        -_    z    _    _     _     • _        _         Z   _

                      ( [OO[W                                ZNON          ZZ    k[               ZODOO3Z3                        3          Z        3
                      J!   J 3I                              I Z     UZNN_INNONP                                       J       3{N           IN       3

                 o    Z     _z                          0       _z             _0         _ZZZ_Z_Z                                 _Z        _Z       Z
     0                OZO0_                                  Z_O             .ZZ_ZZ_O_O_O                                                _   D_O
                      NWNNW_WOH_                                                             W         OHWWH_H_W[W                                    H




D




_    0           _     Iiiiiiiiiiiiiiiiiiiiiiiiiii
                      000_oooo_o00_o0oo00000o0oo_
                 --       IIIIIIIIIIIIIIIIIIIIIIIIIII


     Z       Z            iiiiiiiiiiiiiiiiiiiiiiiiiii
H_                        iiiiiiiiiiiiiiiiiiiiiiiiiii


_u


_        c
_    _   ©            000000000000000000000000000




H Z      _            mmm                     mm        _m      mm       _mm            _m        m mm           mmmmm             _         m_       m




                      ZZZZZ          ZZZZZZZZZ                                                    ZZZ            ZZ    ZZZ         ZZ        ZZZ
                      000000000000000000000000000




                 .£
                      X        XX              XX       XXXX             XXXXXX                        XX        XXXXXXX                     XX       X
                                                              61

                                                                                                                     JJ
                                                                                                         _WLJ
                                                                                                         WWW
                                     _O                       Z                                          HN
                                     OOO_                     _                                          OOO_


                                     uoo                      S    z_                            _                   dd
                                     ZZZO                     _          --           O          OO__
                                     OOOL                              -_             Z          OOWWW_

                                     __
                                     _W                       J
                                                              _    zm
                                                                   _                  z
                                                                                      _      W   mm_zzz
                                                                                                 _WWW_




                      O_         _   HNH_ZO_NO                                    O0_WWIII_

                           _O_       _O                       _    Z          _HOJOHNWWWO0




                  I   mOO0           _mm_WW_m_mWZ_H_




HH



_             _       OOOO            IIIIIIIIIIIIIIIIIIIII

_             _       OOOI            IIIIIIIIIIIIIIIIIIIII


         B'            II1_           IIIIIIIIIIIIIIIIIIIII

H_            &       OOOI            IIIIIIIIIIIIIIIIIIIII




_      © _            OOOO           OOOOOOOOOOOOOOOOOOOOO
H _   _ _             __             ___                 ___                                                  __
_ H    ©_             __             ____0____

O_       _t




                      OOOO           ZZZZZZZZZZZZZZZZZZZZZ




                      NNNH           HNHHHNHHNNHHNHHNNHNHH
                      XXXX           XXXXXXXX_XXXXXXX_X                                                            XXX
                                                              62




                                                               LL
                     jj
                     ZZ
                                                               oo
                                                               _
                                            W                  _
                     _                      W                  ZZ
                     ZZ                     _                  O0
                     _                      W                  _
                     _                             _           NN
                     _W                     _      H           _H
                8                                  m

                     _                      J_            0    D_WWWWW              W        W




                     WW_              _W    O_D_
                                               W       _ "_    H__
                                                               WW_                  _
                     _WH_W_O0                                  _H

                o    _        W_WZ_                            _ZZZ_Z               Z        Z
     0               WWZ_W_W_                                  _0oo0o               o        o
     H




_o
H_



_               _    99_9oooooo
                            IIIIII                             o_oooo_
                                                                IIIIIII             _I           I
_               --       IIIlllllll                                illllll              I        I


           D _           IIIIIIIIII                                IIIIIII              I        I
H_              G        IIIlllllll                                Illllll              I        I


_u



_    _   _ _         0000000000                                0000000              0

_    H     _         ____                                      ___                  _


o_         Et




                     _HZ__ZO                                   _ZZZ            ZZ   Z        Z




                     0000000000                                I        IIII   II   0        3
                     0000000000                                I        IIII   II   _        I




                o
                     HI-'-'IHHHHI'---IHNH                      HNHHHNH              I---'1   I'--I
                     XXXXXXXXXX                                X        XXXX   XX   X        X
                 63




m   _
    W
        Q_
        0 0




    _   _    H
    X   XX
                                                         64



Stm_nary of Investigative          Activities     - April       I, 1980 through    September   30, 1980




Cases    Opened        i/                                                         232

Closed                                                                            304


Pending                                                                           441

Referred        to U. S. Attorney                                                  61

Case Declined           by U. S. Attorney                                          32

Referred        to DOL agency    for administrative           action               48

Referred        to another    investigative     agency                               4

Referred        for local prosecution       (other   than Federal)                   5

Indictments                                                                        21

Convictions                                                                        17

Fines     2/                                                            $    12,500

Recoveries        3/                                                    $   144,681

Col lections       4/                                                  $          500

Claims     5/                                                          $    343,303


Savings    6/                                                          $ 2,149,800


i/   Includes program investigations,  employee integrity, and other
     matters, but excludes cases handled by the Office of Organized
     Crime and Racketeering.

2/   Fines       are the sums of money imposed as a penalty upon defendants
--   after       an administrative hearing, civil suit, or criminal prosecution.

3/   Recoveries include the restoration, restitution or recovery of
     money or property of known value that w_s lost through a crime,
     mismanagement,  etc.

4/   Collections  are the receipt of payments                   of an indemnity    to end a
     civil transaction,  suit or proceeding.

5/   Claims are the dollar value of indemnities  _hich have                    been
     administratively determined by a DOL agency.

6/   Savings are the prevention of dollar value losses to the C_vernment.
     This amount includes actual savings for the reporting period in
     contracts and grants, and projected savings in benefit payments
     based on program agency data.
                                                           65




                I                                                          0
                                                                           oO
                                                                                 0
                                                                                 cO




        0                                   0
                                            cO




0




        [--i                                _



0




_       [-..i



        _0                                                 o_   o'_   a_
        _ _-_   0       0    0    0    0    0    0    0    r_   r_    r_   0     0    0        0    0    0
        _ E_    oo      oO   oO   oO   oo   aO   CO   O0   _    _     _    oO    oO   oO       CO   oo   oO



[-..i   [-i




[-.-I                                                                      _.1




        [-I         N   N    N    _    N     N   _    bl         N    N          N    N    _   _    N1   N
                        67




0   :>   :>   :>   :>        :>   :>   :>
                                            :>
                                       68




              Z
              0
              I--I

       O'_l                  0    0
              Z              cO   oo




              Z
              0



       [.--i >
m      "_ Z



0


              Z


              _      0   0             0    0   0    0    0




0
[--i




M      0




              Z
              0

              _D     >   >   >    :>   >    >   :>   :>   >   :>
                                                                   >
                                              69




    o_ o                 o                    o                  oo


    0          0                                         0




0




d   _


0




    _   0      0         0         0          0    _     0       0     0      0




I        _               0          0                        0    _     _     0

         _           _   0     _    0     •    _             0   _     _      0




        i.-I   h.q       _-I       i,-I       _    I-4   i--I    h-I   I--I
                                                                         70




                                                0    0    _   _    0      0      0     0   0     0    0    0    0    0   0




      o._,                                     oo
                                               O0   O0
                                                                  ooooooooooo
                                                                  O0      O0     O0   _0   00   00   O0   O0   CO   O0   O0




      0




0




d     _                                   0




0




_     0
r_    [.-.i




_     [.,.1 [-.-i   ¢_          0         0    0    0    0    0   0       0      0    0    0    0    0    0    0    0    0


_             •



_                                                                  0
I:_                                                               .,-I
•,_                  0                                    m        _             m              m                        m




                    •,-I   _I    _   ._   ._   _    ._   _    _    ¢j    .,..4   _         _    ._   _    _    ._   _    ._
                                  71



C:   C:   C_   C:   C:   C:   C   C:   0   0   C:   C   C:   C:   C:
                                  72



                    I_   _   0




         o

     <



         Z
         0

     0   _-_                 0




0


         Z

         [-_   oo            oo




0




M    0




 I
<
